                                                             United States Department of State
                                                             and the Broadcasting Board of Governors

                                                             Office ofInspector General


                                                                       SE? 12 2013




MEMORANDUM 


TO:            PM/WRA - Thomas Kodiak         M                ~
FROM:          OIG/AUD- Norman P. Brown, Acting

SUBJECT:       Report on Audit ofNorwegian People 's Aid Under Department ofState and
               US. Agency for International Development Multiple Agreements for Year
               Ended December 31, 2010 (AUD-CG-13-42)

Attached for your review is a report on the audit of grants provided by the U.S. Agency for
International Development (USAID) and the Department of State (Department) to the
nongovernmental organization Norwegian People's Aid. The audit, conducted by an
independent public accountant, was requested by USAID' s Office oflnspector General (OIG).

The report addresses internal control weaknesses and other issues of noncompliance with the
terms of the grant agreement and applicable laws and regulations that require the grantee to take
corrective action. However, the reported internal control weaknesses for Department grants are
similar to those reported for US AID grants in the subject report. USAID compliance staff has
requested that the Norwegian People' s Aid take action to correct the control deficiencies.
USAID will monitor the corrective actions taken by the Norwegian People's Aid to implement
the recommendations on internal controls and issues of noncompliance.

Based on the results of the audit, the Department's OIG has one recommendation to the Bureau
of Political-Military Affairs, Office of Weapons Removal and Abatement:

       Recommendation 1. OIG recommends that the Grants Officer, Bureau of Political­
       Military Affairs, Office of Weapons Abatement, issue a final determination on the
       allowability of questioned costs of $20,283 for Grant Awards Nos. S-PMWRA-10-GR­
       066 ($4,594-ineligible costs), S-PMWRA-09-GR-112 ($10,023-ineligible costs), and
       S-PMWRA-09-GR-004 ($5,666-unsupported costs). Ifthe costs are disallowed, the
       responsible official should ensure that the Norwegian People's Aid reimburses the
       Department of State.

As the action office for the recommendation, please provide, within 30 days of the date of this
memorandum, a response to the Department's OIG. Your response should also include
information on actions taken or planned for the questioned costs identified in the report. Actions
taken or planned are subject to followup and reporting in accordance with the attached
compliance response information.

If you have any questions, please contact Melinda M. Perez, Director for Grants and Contracts
                     [Redacted] (b) (2), [Redacted] (b) (6)   [Redacted] (b) (2), [Redacted] (b) (6)
Division, at (703) 28- ­     or by email at -      @state.gov.

Attachments: As stated.

cc: 	PM/EX- Cathleen E. Lawrence
     USAID/MIOAA/CAS -Eleanor C. Jefferson




                                                                            2

                                     NORWEGIAN PEOPLE’S AID


                    RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                         FOR THE YEAR ENDED DECEMBER 31, 2010




1.   INTRODUCTION TO NORWEGIAN PEOPLE’S AID 


     Norwegian People’s Aid (NPA) is a non-governmental organization (NGO) located in Oslo, Norway.
     NPA is a membership governed organization, which stands on four pillars of equal worth: youth
     work, health and rescue work, socially targeted work and international work. NPA bases much of its
     activity on members’ voluntary work.

     In NPA’s national, international youth, and health and rescue work, the following areas are
     promoted:

           The fight against oppression, poverty and unjust distribution.

           The fight against racism and discrimination. 

           Work for equality and against violence and injustice. 

           Prevention, voluntary engagement and competence building.


     This report is with respect to the U.S. Government funded programs in South Sudan, Angola, and
     Cambodia. The programs were managed by NPA’s field offices located in Nairobi, Kenya, Juba,
     South Sudan, Tbilisi, Georgia, Luanda, Angola, Vientiane, Laos and Amman, Jordan.

2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS

     Following is a description of the active grant awards under which NPA incurred expenditures during
     the year ended December 31, 2010:

      Award # FFP-A-00-04-00021-00

        In January of 2004, the United States Agency for International Development, Bureau for
        Democracy, Conflict and Humanitarian Assistance, awarded NPA $9,423,316 under Grant #
        FFP-A-00-04-00021-00, for the period January 1, 2004 through December 31, 2004. The main
        purpose of the grant is to donate agricultural commodities and to pay related support costs for
        emergency food security program in eastern and western corridors of South Sudan.

        There have been fifteen modifications to this grant, which revised the completion date to
        October 31, 2010, and which increased USAID funding to $65,588,100, as follows:
                                                                   Year          US$
               Initial award                                       2004       $ 9,423,316
               Modification No. 1                                  2004         1,094,152
               Modification No. 2                                  2004         5,011,600
               Modification No. 3                                  2005         6,358,276
               Modification No. 4                                  2005         4,401,300
               Modification No. 5                                  2005         4,517,639
               Modification No. 6                                  2006         4,000,000
               Modification No. 7                                  2006         9,443,300
               Modification No. 8                                  2006              -
               Modification No. 9                                  2007              -
               Modification No.10                                  2008         8,880,717
               Modification No.11                                  2009              -
               Modification No.12                                  2009         6,167,100
               Modification No.13                                  2009         6,290,700
               Modification No.14                                  2010              -
               Modification No.15                                  2010              -

               TOTAL FUNDING                                                  $65,588,100




                                                                                                     1
                                   NORWEGIAN PEOPLE’S AID


                   RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                        FOR THE YEAR ENDED DECEMBER 31, 2010




2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

      Award # DFD-G-00-10-00068-00

       In January of 2010, the United States Agency for International Development, Office of Acquisition
       and Assistance, awarded NPA $2,460,349 under Grant # DFD-G-00-10-00068-00 for the period
       January 27, 2010 through January 31, 2011. The main purpose of the grant is to provide
       support for a food security and agricultural program in South Sudan. Based upon the objective
       stated in the award, the project is expected to distribute seeds and tools in the State of Jonglei
       South Sudan. The program goal stated in the award is to strengthen capacity of rural
       communities in Southern Sudan to achieve improved livelihoods.

       The following is a summary of the current obligated funding:

                                                                  Year              US$
              Initial award                                       2010          $2,460,349
              TOTAL FUNDING                                                     $2,460,349


      Award #S-PMWRA-09-GR-012
       In June of 2009, the U.S. Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement awarded NPA $1,000,000 under Grant # S-PMWRA-09-GR-
       012 for the period June 1, 2009 through May 31, 2010. The main purpose of the grant is to
       contribute to the operational funding and support of explosive ordinance disposal (EOD) and
       battle area clearance (BAC) and technical survey. Amendment 001 extended the work
       completion time to December 31, 2010.

       The following is a summary of the current obligated funding:

                                                                  Year              US$
              Initial award                                       2009          $1,000,000
              TOTAL FUNDING                                                      $1,000,000


      Award #S-PMWRA-10-GR-102

       In July of 2010, the U.S. Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement awarded NPA $1,050,000 under Grant # S-PMWRA-10-GR-
       102 for the period July 1, 2010 through June 30, 2011. The main purpose of the grant is to
       contribute to the operational funding and support of explosive ordinance disposal (EOD) and
       battle area clearance (BAC) in Sudan.

       The following is a summary of the current obligated funding:

                                                                  Year              US$

              Initial award                                       2010          $1,050,000

              TOTAL FUNDING                                                      $1,050,000



                                                                                                       2
                                   NORWEGIAN PEOPLE’S AID


                   RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                        FOR THE YEAR ENDED DECEMBER 31, 2010




2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

      Award #S-PMWRA-09-GR-121

       In June of 2009, the U.S. Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement awarded NPA $168,362 under Grant # S-PMWRA-09-GR-
       121 for the period September 30, 2009 through March 31, 2010. The main purpose of the grant
       is to support the Poti Harbour Survey in Georgia.

       The following is a summary of the current obligated funding:

                                                                 Year           US$

              Initial award                                      2009          $168,362

              TOTAL FUNDING                                                    $168,362


      Award #S-PMWRA-10-GR-079

       In June of 2010, the U.S. Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement awarded NPA $247,620 under Grant # S-PMWRA-10-GR-
       079 for the period July 1, 2010 through June 30, 2011. The main purpose of the grant is to
       support NPA’s Viet Nam Bomb and Mine clearance Action Centre (VBMAC) for development of
       Information Management Systems for Mine Action in Vietnam. The principle objective of this
       grant is to establish national information management systems and an operational national
       bomb and mine action database unit within VBMAC, for humanitarian mine action in Viet Nam

       The following is a summary of the current obligated funding:

                                                                 Year           US$
              Initial award                                      2010          $247,620
              TOTAL FUNDING                                                    $247,620


      Award #S-PMWRA-10-GR-066

       In May of 2010, the U.S. Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement awarded NPA $700,000 under Grant # S-PMWRA-10-GR-
       066 for the period May 1, 2010 through April 30, 2011. The main purpose of the grant is to
       support the NPA UXO Survey and Clearance in Lao PDR. The principle objective of this Grant
       will be to conduct UXO survey and clearance operations in Sekong province in Lao PDR.

       The following is a summary of the current obligated funding:

                                                                 Year           US$

              Initial award                                      2010          $700,000

              TOTAL FUNDING                                                    $700,000



                                                                                                   3
                                   NORWEGIAN PEOPLE’S AID


                   RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                        FOR THE YEAR ENDED DECEMBER 31, 2010




2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

      Award # S-PMWRA-09-GR-112

       In June of 2009, the U.S. Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement awarded NPA $400,000 under Grant # S-PMWRA-09-GR-
       112 for the period September 18, 2009 through August 31, 2010. The main purpose of the grant
       is to support “NPA UXO Survey and Clearance in Laos PDR”.

       Based upon the objectives stated in the award, the project is expected to achieve the following
       outcomes:

          Mitigate the risk to community livelihoods in all affected villages within the NPA Area of
           Operations;
          The National Regulatory Authority has a clearer view as to the scale of the ERW problem in
           Sekong Province

       There has been one modification to this grant, which revised the completion date to November 30,
       2010. The following is a summary of the current obligated funding:

                                                                  Year              US$

              Initial award                                       2009             $400,000

              TOTAL FUNDING                                                        $400,000


      Award # S-PMWRA-10-GR-013

       In May 2010, the United States Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement, awarded NPA $1,800,000 under Grant # S-PMWRA-10-GR-
       013, for the period May 1, 2010 through April 30, 2011.

       The main purpose of the grant is to protect victims of conflict and restore access to land and
       infrastructure through the following:

           Increasing available land for economic and social development;

           Allow free movement and settlement of populations;

           Contribute to improvement of physical infrastructure and access (bridges, schools, etc) to

            promote an increased movement and exchange of goods among communities;

       The following is a summary of the current obligated funding:

                                                                 Year              US$

              Initial award                                      2010           $1,800,000

              TOTAL FUNDING                                                     $1,800,000




                                                                                                        4
                                    NORWEGIAN PEOPLE’S AID


                   RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                        FOR THE YEAR ENDED DECEMBER 31, 2010




2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

      Award # S-PMWRA-10-GR-055

       In May 2010, the United States Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement, awarded NPA $1,254,267 under Grant # S-PMWRA-10-GR-
       055, for the period May 1, 2010 through January 31, 2011. The main purpose of the grant is to
       replace the broken and worn-out equipment, which NPA uses to carry-out WRA funded projects
       to protect victims of conflict and restore safe access to land and infrastructure. NPA received a
       no cost modification extending the work completion time to April 30, 2011.

       The following is a summary of the current obligated funding:

                                                                  Year              US$

               Initial award	                                     2010           $1,254,267

               TOTAL FUNDING 	                                                   $1,254,267


      Award # S-PMWRA-09-GR-004

       In May 2009, the United States Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement, awarded NPA $1,426,721 under Grant # S-PMWRA-09-GR-
       004, for the period May 1, 2009 through April 30, 2010. The main purpose of the grant is to
       protect victims of conflict and restore access to land and infrastructure through the following:

            Increasing available land for economic and social development;

            Allow free movement and settlement of populations;

            Contribute to improvement of physical infrastructure and access (bridges, schools, etc) to

             promote an increased movement and exchange of goods among communities;

       The following is a summary of the current obligated funding:

                                                                  Year              US$

               Initial award	                                     2009           $1,426,721

               TOTAL FUNDING 	                                                   $1,426,721


      Award # S-PMWRA-10-GR-073

       In July 2010, the United States Department of State, Bureau of Political-Military Affairs, Office of
       Weapons Removal and Abatement, awarded NPA $1,000,000 under Grant # S-PMWRA-10-GR-
       073, for the period July 1, 2010 through June 30, 2011 to support NPA’s Jordan Northern
       Border Mine Clearance Project. The main purpose of the grant is to complete the clearance
       along the Syrian border so that landmines and Explosive Remnants of War (ERW) are no
       longer an obstacle to development in Jordan. The objectives of this project are:

       	   To complete the Northern Border Project (NBP) by clearing the 104 km mine belt along the
            Jordan-Syrian border.
       	   Verify clearance activities through manual verification teams, machines and Mine
            Detections Dogs (MDD).

                                                                                                         5
                                      NORWEGIAN PEOPLE’S AID


                     RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                          FOR THE YEAR ENDED DECEMBER 31, 2010




2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

        Award # S-PMWRA-10-GR-073 (Continued)

         The following is a summary of the current obligated funding:

                                                                    Year              US$

                 Initial award	                                     2010           $1,000,000

                 TOTAL FUNDING 	                                                   $1,000,000


      Award # S-PMWRA-10-GR-068

         In June 2010, the United States Department of State, Bureau of Political-Military Affairs, Office of
         Weapons Removal and Abatement, awarded NPA $1,230,000 under Grant # S-PMWRA-10-GR-
         068, for the period June 1, 2010 through May 31, 2011 to support NPA’s South Iraq Advisory
         Support to the Regional Mine Action Center South (RMACS) project. The main purpose of the
         grant is for mines and Explosive Remnants of War (ERW) to no longer be an obstacle to
         development in Central/South Iraq. The objectives of this project are:

         	   Formalization of the RMACS role as a regional mine action center.
         	   Delegation authority and responsibility from the DMA to the RMACS will be defined and
              agreed upon between all parties and subsequently the roles and terms of references of the
              individuals within RMACS will be clarified.
         	   Conduct full needs assessment within the RMACS to indicate the potential shortfalls in the
              form of human resources, training and assets.

         NPA received a no cost modification extending the work completion time to July 31, 2011.

         The following is a summary of the current obligated funding:

                                                                    Year              US$

                 Initial award	                                     2010           $1,230,000

                 TOTAL FUNDING 	                                                   $1,230,000


3.   PERIOD OF AUDIT

     In accordance with the terms of reference for the audit, this report covers the year ended
     December 31, 2010.


4.   OBJECTIVES AND SCOPE OF AUDIT

     Our audit of the fund accountability statements of NPA’s United States Agency for International
     Development (USAID) and United States Department of State (USDOS) awards, for the year
     ended December 31, 2010, was performed in accordance with United States Government Audit
     Standards and the Guidelines for Financial Audits Contracted by Foreign Recipients, in order for us
     to express an opinion on the fund accountability statements. Please refer to point 6 below and
     page I-4 of the accompanying report for our opinion on the fund accountability statements.
                                                                                                           6
                                   NORWEGIAN PEOPLE’S AID


                   RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                        FOR THE YEAR ENDED DECEMBER 31, 2010




5.   PROCEDURES PERFORMED              


     As required by United States Government Auditing Standards and the Guidelines for Financial
     Audits Contracted by Foreign Recipients, we performed audit procedures to evaluate the
     effectiveness of the design and operation of the internal controls that we considered relevant to
     preventing or detecting material noncompliance with the compliance requirements applicable to
     each of NPA’s U.S. Government awards.

     Our audit procedures included examining the underlying documentation, which supported the
     financial transactions recorded as expenditures against the U.S. Government awards. Our
     selection of items, which we examined, was based upon a random sample of transactions as well
     as the materiality of certain transactions.

6.   AUDIT RESULTS

     Fund Accountability Statements:

     Our opinion on the fund accountability statements for the year ended December 31, 2010 was
     unqualified. Please refer to page I-4 of the accompanying report for our full opinion.

     Questioned Costs:

     Our 2010 audit included both ineligible and unsupported questioned costs. Following is a summary
     of the questioned costs identified during our audit process.
                                                                        Questioned Costs
                                                                     Ineligible Unsupported

              Award # FFP-A-00-04-00021-00                          $     -           $   -
              Grant # DFD-G-00-10-00068-00                          $    35,227       $   -
              Grant # S-PMWRA-09-GR-012                             $     -           $   -
              Grant # S-PMWRA-10-GR-102                             $     -           $   -
              Award #S-PMWRA-09-GR-121                              $     -           $   -
              Award #S-PMWRA-10-GR-079                              $     -           $   -
              Award #S-PMWRA-10-GR-066                              $     4,594       $   -
              Award #S-PMWRA-09-GR-112                              $    10,023       $   -
              Award #S-PMWRA-10-GR-013                              $     -           $   -
              Award #S-PMWRA-10-GR-055                              $     -           $   -
              Award #S-PMWRA-09-GR-004                              $     -           $   5,666
              Award #S-PMWRA-10-GR-073                              $     -           $   -
              Award #S-PMWRA-10-GR-068                              $     -           $   -

     Report on Internal Control (Please Refer to Sections II and IV of our report):

     We noted the following material weaknesses: 


         Noncompliance with established procurement policies (Sudan).

         Significant journal entries which were not properly supported (Sudan).

         Timesheets were incomplete, not signed, not approved and there were instances where time

          charged to the awards did not correspond to hours indicated on timesheets (Sudan, Angola,
          Laos, Jordan and Iraq).
         Cash Management: bank reconciliations were not properly completed, reviewed or approved
          and petty cash counts were not properly conducted or accurate (Sudan).
         Reporting of known fraud (Sudan).


                                                                                                    7
                                    NORWEGIAN PEOPLE’S AID


                    RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER

                         FOR THE YEAR ENDED DECEMBER 31, 2010




6.   AUDIT RESULTS (Continued)

     Report on Internal Control (Please Refer to Sections II and IV of our report) (continued):

     We noted the following significant deficiencies:

         Inventory was not properly controlled (Sudan). 

         Personnel files were incomplete (Sudan). 

         Financial records were not properly filed and difficult to locate (Sudan).

         Numerous instances of payment vouchers not properly signed and dated (Sudan).

         Purchase of equipment and vehicles were not properly allocated between donors (Laos).


     We noted the following other areas of concern:


         Reconciliation and reporting of employee travel advances (Sudan).

         Numerous instances where similar transactions were coded differently in the accounting

          system (Sudan).

         Instances of bank reconciliations not being signed by reviewer (Angola).

         Conflict of interest statements (Angola, Laos, Georgia, Jordan and Iraq).

         Whistleblower policy (Angola). 

         Timely remittance of tax payments (Laos).

         Travel documentation missing (Laos, Georgia, Jordan and Iraq).

         Adherence to policies and procedures over petty cash (Laos). 


     Report on Compliance (Please Refer to Sections III and IV of our report)

      We noted the following material instances of non-compliance:

         Noncompliance with established procurement policies (Sudan).


7.   INDIRECT COST RATES

     Indirect costs were charged to U.S. Government awards based upon NPA’s actual rate of 14.84%
     for the year ended December 31, 2010. Please refer to Section VI of the accompanying report for
     the calculation of NPA’s 2010 indirect rate audited by other auditors.


8.   COST-SHARING

     Based on our review, nothing came to our attention that caused us to believe that NPA did not fairly
     present the Cost-Sharing Schedule. Please refer to Section V of our report for the full Cost-Sharing
     Schedule.




                                                                                                       8
   NORWEGIAN PEOPLE’S AID
UNITED STATES GOVERNMENT PROGRAMS

                       AUDIT REPORT

                     FEDERAL AWARD
             COMPLIANCE EXAMINATION

             AS OF DECEMBER 31, 2010
                                    NORWEGIAN PEOPLE’S AID



                                              CONTENTS



                                                                                  PAGE NO.


I.     Financial Section                                                            I (1-30)


II.    Independent Auditors' Report on Internal Control                              II (1-3)


III.   Independent Auditors' Report on Compliance                                   III (1-2)


IV.    Independent Auditors' Report on Findings and Recommendations                IV (1-14)


V.     Independent Auditors' Review Report on the Cost-Sharing Schedule              V (1-5)


VI.    Report on Indirect Rate Calculation for the Year Ended December 31, 2010     VI (1-6)
                 FINANCIAL STATEMENTS

   NORWEGIAN PEOPLE’S AID
UNITED STATES GOVERNMENT PROGRAMS

  FOR THE YEAR ENDED DECEMBER 31, 2010




                                    I-1
                                    NORWEGIAN PEOPLE’S AID



                                             CONTENTS


                                                                                   PAGE NO.


INDEPENDENT AUDITORS' REPORT                                                          I-4

EXHIBIT A -     Summary Fund Accountability Statement for the Year Ended

                December 31, 2010                                                     I-5


EXHIBIT B -     Fund Accountability Statement for Grant # FFP-A-00-04-00021-00 

                for the Year Ended December 31, 2010                                  I-6


EXHIBIT C -     Fund Accountability Statement for Grant # DFD-G-00-10-00068-00 

                for the Year Ended December 31, 2010                                  I-7


EXHIBIT D -     Fund Accountability Statement for Grant # S-PMWRA-09-GR-012

                for the Year Ended December 31, 2010                                  I-8


EXHIBIT E -     Fund Accountability Statement for Grant # S-PMWRA-10-GR-102

                for the Year Ended December 31, 2010                                  I-9


EXHIBIT F -     Fund Accountability Statement for Grant # S-PMWRA-09-GR-121

                for the Year Ended December 31, 2010                                  I-10


EXHIBIT G -     Fund Accountability Statement for Grant # S-PMWRA-10-GR-079

                for the Year Ended December 31, 2010                                  I-11


EXHIBIT H -     Fund Accountability Statement for Grant # S-PMWRA-10-GR-066

                for the Year Ended December 31, 2010                                  I-12


EXHIBIT I   -   Fund Accountability Statement for Grant # S-PMWRA-09-GR-112

                for the Year Ended December 31, 2010                                  I-13


EXHIBIT J -     Fund Accountability Statement for Grant # S-PMWRA-10-GR-013

                for the Year Ended December 31, 2010                                  I-14


EXHIBIT K -	    Fund Accountability Statement for Grant # S-PMWRA-10-GR-055

                for the Year Ended December 31, 2010                                  I-15


EXHIBIT L -	    Fund Accountability Statement for Grant # S-PMWRA-09-GR-004

                for the Year Ended December 31, 2010                                  I-16


EXHIBIT M -	    Fund Accountability Statement for Grant # S-PMWRA-10-GR-073

                for the Year Ended December 31, 2010                                  I-17


EXHIBIT N -	    Fund Accountability Statement for Grant # S-PMWRA-10-GR-068

                for the Year Ended December 31, 2010                                 1-18 


EXHIBIT O -	    Fund Accountability Statement for Grant # DFD-G-00-05-00021-00

                for the Year Ended December 31, 2010                                  I-19


EXHIBIT P -	    Fund Accountability Statement for Grant # DFD-G-00-06-00070-00

                for the Year Ended December 31, 2010                                  I-20





                                                                                              I-2
                                    NORWEGIAN PEOPLE’S AID



                                            CONTENTS


                                                                               PAGE NO.

EXHIBIT Q - Fund Accountability Statement for Grant # S-PMWRA-08-GR-036

            for the Year Ended December 31, 2010                                  I-21


EXHIBIT R - 	Fund Accountability Statement for Grant # DFD-G-00-09-00097-00

             for the Year Ended December 31, 2010                                 I-22


EXHIBIT S - Fund Accountability Statement for Grant # DFD-G-00-08-00053-00

            for the Year Ended December 31, 2010                                  I-23


EXHIBIT T - Fund Accountability Statement for Grant # S-PMWRA-08-GR-013

            for the Year Ended December 31, 2010                                  I-24


EXHIBIT U - 	Fund Accountability Statement for Grant # S-PMWRA-08-GR-089

             for the Year Ended December 31, 2010                                 I-25


EXHIBIT V - Fund Accountability Statement for Grant # S-PMWRA-07-GR-077

            for the Year Ended December 31, 2010                                  I-26


EXHIBIT W - Fund Accountability Statement for Grant # S-PMWRA-06-GR-056

            for the Year Ended December 31, 2010                                  I-27


NOTES TO FINANCIAL STATEMENTS	                                                  I (28-30)




                                                                                          I-3
                                  INDEPENDENT AUDITORS' REPORT 




To the Board of Directors
Norwegian People’s Aid
Oslo, Norway

        We have audited the accompanying fund accountability statements of Norwegian People’s Aid
(NPA) for the year ended December 31, 2010. These fund accountability statements are the responsibility
of NPA’s management. Our responsibility is to express an opinion on these statements based on our audit.
         We conducted our audit of the fund accountability statements in accordance with U.S. Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the fund accountability
statements are free of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the fund accountability statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall statement presentation. We believe that our audit provides a reasonable basis for our
opinion.
        In our opinion, the fund accountability statements referred to above present fairly, in all material
respects, costs incurred and reimbursed by the United States Government funding agencies for the year
ended December 31, 2010, in accordance with the terms of the agreements and in conformity with the basis
of accounting described in Note 1 to the fund accountability statements.
         In accordance with U.S. Government Auditing Standards, we have also issued our reports dated
January 17, 2013, on our consideration of NPA’s internal control over financial reporting and our tests of
compliance with certain provisions of laws and regulations. Those reports are an integral part of an audit
performed in accordance with U.S. Government Auditing Standards and should be read in conjunction with
this Independent Auditors’ Report in considering the results of our audit.
                                 ________________________________________


         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




January 17, 2013




                 4550 Montgomery Avenue • Suite 650 North • Bethesda, Maryland 20814 
                         (301) 951‐9090 • Fax: (301) 951‐3570 • www.grfcpa.com 
                                                       
             Member of CPAmerica International, an Affiliate of Crowe Horwath International
 
     Member of the American Institute of Certified Public Accountants’ Public Companies Practice Section



                                                                                                            I-4
                                                                                        EXHIBIT A

                                   NORWEGIAN PEOPLE’S AID 


                        SUMMARY FUND ACCOUNTABILITY STATEMENT 

                          FOR THE YEAR ENDED DECEMBER 31, 2010




                                                           Questioned Costs (Note 2)
                                              Actual        Ineligible Unsupported       Eligible
CASH RECEIPTS
  Award # FFP-A-00-04-00021-00             $ (4,438,691)        $   -        $   -      $ (4,438,691)
  Award # DFD-G-00-10-00068-00               (1,850,000)            -            -        (1,850,000)
  Award # DFD-G-00-09-00097-00                 (494,996)            -            -          (494,996)
  Award # S-PMWRA-09-GR-012                  (1,000,000)            -            -        (1,000,000)
  Award # S-PMWRA-10-GR-102                    (200,000)            -            -          (200,000)
  Award # S-PMWRA-09-GR-121                    (118,362)            -            -          (118,362)
  Award # S-PMWRA-10-GR-079                     (97,620)            -            -           (97,620)
  Award # S-PMWRA-09-GR-112                    (300,000)            -            -          (300,000)
  Award # S-PMWRA-10-GR-013                    (500,000)            -            -          (500,000)
  Award # S-PMWRA-10-GR-055                    (500,000)            -            -          (500,000)
  Award # S-PMWRA-09-GR-004                    (250,000)            -            -          (250,000)
  Award # S-PMWRA-10-GR-073                    (500,000)            -            -          (500,000)
  Award # S-PMWRA-10-GR-068                    (700,000)            -            -          (700,000)
        Total cash receipts                (10,949,669)             -            -      (10,949,669)
AGRICULTURAL COMMODITIES
  Award # FFP-A-00-04-00021-00              (1,454,400)             -            -       (1,454,400)
COSTS INCURRED
  Award # FFP-A-00-04-00021-00               5,352,523             -             -        5,352,523
  Award # DFD-G-00-10-00068-00               2,135,725         (35,227)          -        2,100,498
  Award # S-PMWRA-09-GR-012                    626,287             -             -          626,287
  Award # S-PMWRA-10-GR-102                    306,286             -             -          306,286
  Award # S-PMWRA-09-GR-121                    109,284             -             -          109,284
  Award # S-PMWRA-10-GR-079                    140,145             -             -          140,145
  Award # S-PMWRA-10-GR-066                     95,181          (4,594)          -           90,587
  Award # S-PMWRA-09-GR-112                    367,147         (10,023)          -          357,124
  Award # S-PMWRA-10-GR-013                    588,905             -             -          588,905
  Award # S-PMWRA-10-GR-055                  1,121,796             -             -        1,121,796
  Award # S-PMWRA-09-GR-004                    607,731             -          (5,666)       602,065
  Award # S-PMWRA-10-GR-073                    463,943             -             -          463,943
  Award # S-PMWRA-10-GR-068                    339,353             -             -          339,353
        Total costs incurred                12,254,306         (49,844)       (5,666)    12,198,796
Excess of expenditures over receipts                                                       (205,273)

FUNDS RETURNED TO U.S. GOVERNMENT:

  Award #S-PMWRA-09-GR-112                                                                          87

Balance due from (to) U.S. Government at beginning of year, as restated
(Note 4)                                                                                  1,477,029
BALANCE DUE FROM (TO) U.S. GOVERNMENT AT END OF YEAR                                    $ 1,271,843




                           See accompanying notes to financial statements.                      I-5
                                                                                                                 EXHIBIT B

                                           NORWEGIAN PEOPLE’S AID 


                 FUND ACCOUNTABILITY STATEMENT FOR GRANT # FFP-A-00-04-00021-00

                            FOR THE YEAR ENDED DECEMBER 31, 2010




UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

Grant # FFP-A-00-04-00021-00 - Sudan

Period of Performance: January 1, 2004 to October 31, 2010

Total Estimated Amount Awarded: $65,588,100

Total Obligated Amounts: $34,361,639

      Agricultural Commodities:         $18,560,661

      Inland Freight:                   $12,665,800

      ITSH and 202e:                    $34,361,639


Cost Share: $4,280,422
                                                                                                            Agricultural
                                                                                                Cash       Commodities

Balance Due from (to) USAID at December 31, 2009, as restated (Note 4)                     $ 1,384,004       $         -

      Receipts:
        Cash                                                                                (3,900,000)               -
        Inland freight reimbursements                                                         (538,691)               -
        Value of Agricultural Commodities and Ocean Freight                                       -              (1,454,400)

      Eligible Expenditures:
         Agricultural Commodities                                                                   -            1,454,400
         Inland Freight                                                                          663,435             -
         ITSH and 202e                                                                         3,234,688             -

BALANCE DUE FROM (TO) USAID AT DECEMBER 31, 2010                                           $    843,436      $         -



                                      Questioned Costs
                                            (Note 2)          Total        2009       Total
                       Actual      Ineligible Unsupported    Eligible    Cumulative Cumulative      Budget         Variance
Agricultural
 Commodities:
 Commodity Value      $1,454,400   $   -        $    -      $1,454,400 $10,174,400 $11,628,800 $11,551,561        $     77,239
 Ocean Freight             -           -             -           -       6,314,400   6,314,400   7,009,100            (694,700)

                       1,454,400       -             -       1,454,400    16,488,800   17,943,200   18,560,661        (617,461)

Inland Freight          663,435        -             -        663,435     10,404,462   11,067,897   12,665,800     (1,597,903)

Internal Transport,
  Storage and
  Handling (ITSH)      2,669,911       -             -       2,669,911    27,428,736   30,098,647   30,381,337        (282,690)
Rehabilitation of
  Rural Access
  Roads (202e)          564,777        -             -        564,777      3,115,483    3,680,260    3,980,302        (300,042)

                       3,234,688       -             -       3,234,688    30,544,219   33,778,907   34,361,639        (582,732)

TOTAL                 $5,352,523   $   -        $    -      $5,352,523 $57,437,481 $62,790,004 $65,588,100 $(2,798,096)




                                   See accompanying notes to financial statements.                                         I-6
                                                                                                        EXHIBIT C

                                        NORWEGIAN PEOPLE’S AID

             FUND ACCOUNTABILITY STATEMENT FOR GRANT # DFD-G-00-10-00068-00
                        FOR THE YEAR ENDED DECEMBER 31, 2010



 UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

 Grant # DFD-G-00-10-00068-00 - Sudan

 Period of Performance: January 27, 2010 to January 31, 2011

 Total Amount Awarded: $2,460,349

 Total Obligated Amount: $2,460,349


 Balance Due from (to) USAID at December 31, 2009                                                   $         -

      Receipts                                                                                          (1,850,000)

      Eligible Expenditures                                                                             2,100,498

 BALANCE DUE FROM (TO) USAID AT DECEMBER 31, 2010                                                   $     250,498



                                         Questioned Costs
                                               (Note 2)           Total        Total
                         Actual      Ineligible   Unsupported    Eligible    Cumulative    Budget         Variance

Agricultural and Food
 Security               $2,135,725   $ (35,227)     $   -       $2,100,498   $2,100,498   $2,460,349       $(359,851)




                              See accompanying notes to financial statements.                                     I-7
                                                                                                          EXHIBIT D

                                        NORWEGIAN PEOPLE’S AID 


            FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-09-GR-012

                       FOR THE YEAR ENDED DECEMBER 31, 2010




 UNITED STATES DEPARTMENT OF STATE

 Grant # S-PMWRA-09-GR-012 - Sudan

 Period of Performance: June 1, 2009 to December 31, 2010

 Total Amount Awarded: $1,000,000

 Total Obligated Amount: $1,000,000


 Balance Due from (to) USDOS at December 31, 2009                                                    $     309,179

     Receipts                                                                                            (1,000,000)

     Eligible Expenditures                                                                                 626,287

 BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                                    $     (64,534)



                                    Questioned Costs
                                          (Note 2)          Total       2009         Total
                     Actual    Ineligible    Unsupported   Eligible   Cumulative   Cumulative    Budget       Variance

EOD/BAC Clearance
 and Technical
 Survey – Sudan     $626,287     $ -            $ -        $626,287    $309,179     $935,466    $1,000,000     $(64,534)




                               See accompanying notes to financial statements.                                     I-8
                                                                                                      EXHIBIT E

                                      NORWEGIAN PEOPLE’S AID

            FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-10-GR-102
                       FOR THE YEAR ENDED DECEMBER 31, 2010



 UNITED STATES DEPARTMENT OF STATE

 Grant # S-PMWRA-10-GR-102 - Sudan

 Period of Performance: July 1, 2010 to June 30, 2011

 Total Amount Awarded: $1,050,000

 Total Obligated Amount: $1,050,000


 Balance Due from (to) USDOS at December 31, 2009                                                     $       -

      Receipts                                                                                        (200,000)

      Eligible Expenditures                                                                               306,286

 BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                                     $ 106,286



                                         Questioned Costs
                                               (Note 2)           Total       Total
                          Actual    Ineligible     Unsupported   Eligible   Cumulative    Budget          Variance

EOD/BAC Clearance and
 Technical Survey –
 Sudan                   $306,286     $   -          $   -       $306,286    $306,286    $1,050,000       $(743,714)




                              See accompanying notes to financial statements.                                     I-9
                                                                                                                 EXHIBIT F

                                               NORWEGIAN PEOPLE’S AID 


               FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-09-GR-121

                          FOR THE YEAR ENDED DECEMBER 31, 2010




 UNITED STATES DEPARTMENT OF STATE

 Award # S-PMWRA-09-GR-121 - Georgia

 Period of Performance: September 30, 2009 to March 31, 2010

 Total Amount Awarded: $168,362

 Total Obligated Amount: $168,362


 Balance Due from (to) USDOS at December 31, 2009                                                             $       6,424

        Receipts                                                                                                   (118,362)

        Eligible Expenditures                                                                                      109,284

 BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                                             $      (2,654)



                                         Questioned Costs
                                               (Note 2)           Total        2009         Total
                          Actual      Ineligible   Unsupported   Eligible    Cumulative   Cumulative    Budget      Variance

Personnel                 $ 58,807    $    -       $      -      $ 58,807       $ -          $ 58,807   $ 72,900    $(14,093)
Travel                        -            -              -          -           12,457        12,457     14,000      (1,543)
Equipment                    9,350         -              -         9,350        33,922        43,272     43,160         112
Supplies                       131         -              -            131          800           131        300         631
Running Costs/Other         27,421         -              -        27,421         2,251        27,421     14,780      14,892

Total Direct                95,709         -              -        95,709        49,430       145,139    145,140          (1)
Indirect Costs (Note 3)     13,575         -              -        13,575         6,994        20,570     23,222      (2,652)

TOTAL                     $109,284 $       -       $      -      $109,284       $56,424      $165,709   $168,362    $ (2,653)




                                     See accompanying notes to financial statements.                                    I-10
                                                                                                    EXHIBIT G

                                            NORWEGIAN PEOPLE’S AID 


                 FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-10-GR-079

                            FOR THE YEAR ENDED DECEMBER 31, 2010




 UNITED STATES DEPARTMENT OF STATE

 Award # S-PMWRA-10-GR-079 - Vietnam

 Period of Performance: July 1, 2010 to June 30, 2011

 Total Amount Awarded: $ 247,620

 Total Obligated Amount: $ 247,620


 Balance Due from (to) USDOS at December 31, 2009                                                   $      -

        Receipts                                                                                        (97,620)

        Eligible Expenditures                                                                           140,145

 BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                                   $ 42,525



                                       Questioned Costs
                                             (Note 2)           Total        Total
                      Actual      Ineligible     Unsupported   Eligible    Cumulative    Budget      Variance

Personnel            $ 43,056       $   -         $   -        $ 43,056       $ 43,056   $117,437       $ (74,381)
Travel                  -               -             -           -              -         21,500         (21,500)
Equipment              76,322           -             -          76,322         76,322     49,500          26,822
Supplies                2,362           -             -           2,362          2,362     10,800          (8,438)
Other                     295           -             -             295            295     14,100         (13,805)

Total Direct           122,035          -             -          122,035       122,035    213,337         (91,302)
Indirect Costs
  (Note 3)              18,110          -             -           18,110        18,110     34,283         (16,173)

TOTAL                 $140,145       $ -          $   -        $140,145       $140,145   $247,620       $(107,475)




                                 See accompanying notes to financial statements.                               I-11
                                                                                                            EXHIBIT H

                                            NORWEGIAN PEOPLE’S AID 


                 FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-10-GR-066

                            FOR THE YEAR ENDED DECEMBER 31, 2010




 UNITED STATES DEPARTMENT OF STATE

 Award # S-PMWRA-10-GR-066 - Laos

 Period of Performance: May 1, 2010 to April 30, 2011

 Total Amount Awarded: $ 700,000

 Total Obligated Amount: $ 700,000


 Balance Due from (to) USDOS at December 31, 2009                                                             $ -

        Receipts                                                                                                  -

        Eligible Expenditures                                                                                  90,587

 BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                                             $90,587



                                   Questioned Costs
                                         (Note 2)                         Total       Total
                    Actual     Ineligible   Unsupported   Adjustments    Eligible   Cumulative    Budget      Variance

Personnel            $65,782     $ -         $   -              $1,984   $67,766        $67,766 $304,000     $(236,234)
Travel                  -           -            -               -          -             -       33,500       (33,500)
Equipment               -           -            -               -          -             -      128,809      (128,809)
Supplies               2,631        -            -               -         2,631          2,631   26,000       (23,369)
Other                 12,485      (4,000)        -               -         8,485          8,485 110,500       (102,015)

Total Direct          80,898      (4,000)        -               1,984     78,882        78,882   602,809     (523,927)
Indirect Costs
  (Note 3)            12,005       (594)         -                294      11,705        11,705    97,191       (84,486)

TOTAL                $92,903     $(4,594)    $   -              $2,278   $90,587        $90,587 $700,000     $(609,413)




                                 See accompanying notes to financial statements.                                      I-12
                                                                                                               EXHIBIT I

                                              NORWEGIAN PEOPLE’S AID 


                 FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-09-GR-112

                            FOR THE YEAR ENDED DECEMBER 31, 2010




 UNITED STATES DEPARTMENT OF STATE

 Award # S-PMWRA-09-GR-112 - Laos

 Period of Performance: September 18, 2009 to November 30, 2010

 Total Amount Awarded: $ 400,000

 Total Obligated Amount: $ 400,000


 Balance Due from (to) USDOS at December 31, 2009                                                         $      26,087

        Receipts                                                                                               (300,000)

        Eligible Expenditures                                                                                  357,124

        Funds returned to U.S. DOS                                                                                   87

 BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                                         $      83,298



                               Questioned Costs
                                     (Note 2)                      Total      2009        Total
                  Actual    Ineligible Unsupported Adjustments    Eligible Cumulative   Cumulative   Budget      Variance

Personnel        $141,561 $     -   $     -            $(1,984) $139,577      $16,084     $155,661 $136,200      $ 19,461
Equipment          80,555   (8,728)       -               -       71,827        -           71,827   92,000       (20,173)
Supplies           35,257      -          -               -       35,257        -           35,257   54,920       (19,663)
Other              64,314      -          -               -       64,314        6,769       71,083   61,500         9,583

Total Direct      321,687     (8,728)     -             (1,984)   310,975      22,853      333,828   344,620      (10,972)
Indirect Costs
  (Note 3)         47,738     (1,295)     -               (294)    46,149       3,234       49,393    55,380       (5,997)

TOTAL            $369,425 $(10,023) $     -            $(2,278) $357,124      $26,087     $383,211 $400,000     $(16,789)




                                   See accompanying notes to financial statements.                                   I-13
                                                                                                        EXHIBIT J

                                           NORWEGIAN PEOPLE’S AID 


                 FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-10-GR-013

                            FOR THE YEAR ENDED DECEMBER 31, 2010




 UNITED STATES DEPARTMENT OF STATE

 Award # S-PMWRA-10-GR-013 - Angola

 Period of Performance: May 1, 2010 to April 30, 2011

 Total Amount Awarded: $ 1,800,000

 Total Obligated Amount: $ 1,800,000


 Balance Due from (to) USDOS at December 31, 2009                                                       $      -

        Receipts                                                                                        (500,000)

        Eligible Expenditures                                                                               588,905

 BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                                       $ 88,905



                                        Questioned Costs
                                              (Note 2)            Total        Total
                     Actual        Ineligible      Unsupported   Eligible    Cumulative     Budget      Variance

Personnel             $331,845 $     -            $    -         $331,845       $331,845   $ 960,624    $ (628,779)
Equipment               41,696       -                 -           41,696         41,696      94,100       (52,404)
Supplies                84,441       -                 -           84,441         84,441     330,701      (246,260)
Other                   54,823       -                 -           54,823         54,823     193,523      (138,700)

Total Direct           512,805       -                 -           512,805       512,805    1,578,948       (1,066,143)
Indirect Costs
  (Note 3)              76,100       -                 -            76,100        76,100     221,052         (144,952)

TOTAL                 $588,905 $     -           $     -         $588,905       $588,905   $1,800,000   $(1,211,095)




                                 See accompanying notes to financial statements.                                   I-14
                                                                                                         EXHIBIT K

                                           NORWEGIAN PEOPLE’S AID 


                 FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-10-GR-055

                            FOR THE YEAR ENDED DECEMBER 31, 2010




 UNITED STATES DEPARTMENT OF STATE

 Award # S-PMWRA-10-GR-055 - Angola

 Period of Performance: May 1, 2010 to April 30, 2011

 Total Amount Awarded: $ 1,254,267

 Total Obligated Amount: $ 1,254,267


 Balance Due from (to) USDOS at December 31, 2009                                                        $       -

        Receipts                                                                                             (500,000)

        Eligible Expenditures                                                                             1,121,796

 BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                                        $ 621,796



                                        Questioned Costs
                                              (Note 2)           Total         Total
                      Actual       Ineligible     Unsupported   Eligible     Cumulative      Budget          Variance

Equipment            $ 976,834    $    -         $      -       $ 976,834      $ 976,834    $1,100,234        $(123,400)

Total Direct           976,834         -                -         976,834        976,834     1,100,234         (123,400)
Indirect Costs
  (Note 3)             144,962         -                -         144,962        144,962      154,033            (9,071)

TOTAL                $1,121,796   $    -         $      -       $1,121,796     $1,121,796   $1,254,267        $(132,471)




                                  See accompanying notes to financial statements.                                    I-15
                                                                                                           EXHIBIT L

                                            NORWEGIAN PEOPLE’S AID 


                 FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-09-GR-004

                            FOR THE YEAR ENDED DECEMBER 31, 2010




 UNITED STATES DEPARTMENT OF STATE

 Award #S-PMWRA-09-GR-004 - Angola

 Period of Performance: May 1, 2009 to April 30, 2010

 Total Amount Awarded: $1,426,721

 Total Obligated Amount: $1,426,721


 Balance Due from (to) USDOS at December 31, 2009                                                        $(393,546)

        Receipts                                                                                           (250,000)

        Eligible Expenditures                                                                                 602,065

 BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                                        $ (41,481)



                                  Questioned Costs
                                        (Note 2)             Total       2009         Total
                    Actual    Ineligible   Unsupported      Eligible   Cumulative   Cumulative    Budget       Variance

Personnel          $355,656     $    -           $(4,934)   $350,722     $523,970   $ 874,692    $ 837,012     $ 37,680
Supplies             61,584          -             -          61,584       41,747     103,331      102,486          845
Other               111,958          -             -         111,958      120,376     232,334      290,434      (58,100)

Total Direct        529,198          -            (4,934)    524,264      686,093    1,210,357    1,229,932      (19,575)
Indirect Costs
  (Note 3)           78,533          -              (732)     77,801       97,082      174,883     196,789      (21,906)

TOTAL              $607,731     $    -           $(5,666)   $602,065     $783,175   $1,385,240   $1,426,721     $(41,481)




                                    See accompanying notes to financial statements.                                I-16
                                                                                                      EXHIBIT M

                                         NORWEGIAN PEOPLE’S AID 


               FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-10-GR-073

                          FOR THE YEAR ENDED DECEMBER 31, 2010




 UNITED STATES DEPARTMENT OF STATE

 Award #S-PMWRA-10-GR-073 - Jordan

 Period of Performance: July 1, 2010 to June 30, 2011

 Total Amount Awarded: $ 1,000,000

 Total Obligated Amount: $ 1,000,000


 Balance Due from (to) USDOS at December 31, 2009                                                     $      -

        Receipts                                                                                       (500,000)

        Eligible Expenditures                                                                             463,943

 BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                                     $ (36,057)



                                         Questioned Costs
                                               (Note 2)           Total       Total
                          Actual     Ineligible    Unsupported   Eligible   Cumulative   Budget        Variance

Personnel                 $171,988   $   -         $     -       $171,988     $171,988   $ 459,467        $(287,479)
Travel                       3,019       -               -          3,019        3,019      19,300          (16,281)
Equipment                  171,903       -               -        171,903      171,903     231,790          (59,887)
Supplies                     5,518       -               -          5,518        5,518      88,743          (83,225)
Other                       51,563       -               -         51,563       51,563      77,893          (26,330)

Total Direct               403,991       -               -        403,991      403,991     877,193         (473,202)
Indirect Costs (Note 3)     59,952       -               -         59,952       59,952     122,807          (62,855)

TOTAL                     $463,943       $    -    $     -       $463,943     $463,943   $1,000,000       $(536,057)




                                See accompanying notes to financial statements.                                  I-17
                                                                                                     EXHIBIT N

                                         NORWEGIAN PEOPLE’S AID 


               FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-10-GR-068

                          FOR THE YEAR ENDED DECEMBER 31, 2010




 UNITED STATES DEPARTMENT OF STATE

 Award #S-PMWRA-10-GR-068 - Iraq

 Period of Performance: June 1, 2010 to July 31, 2011

 Total Amount Awarded: $ 1,230,000

 Total Obligated Amount: $ 1,230,000


 Balance Due from (to) USDOS at December 31, 2009                                                    $       -

        Receipts                                                                                      (700,000)

        Eligible Expenditures                                                                            339,353

 BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                                    $(360,647)



                                         Questioned Costs
                                               (Note 2)          Total       Total
                          Actual     Ineligible   Unsupported   Eligible   Cumulative   Budget        Variance

Personnel                 $123,526   $    -      $    -         $123,526     $123,526   $ 292,700        $(169,174)
Travel                      21,639        -           -           21,639       21,639      40,000          (18,361)
Equipment                   54,270        -           -           54,270       54,270     506,407         (452,137)
Supplies                     2,243        -           -            2,243        2,243      19,200          (16,957)
Other                       93,823        -           -           93,823       93,823     220,640         (126,817)

Total Direct               295,501        -           -          295,501      295,501    1,078,947        (783,446)
Indirect Costs (Note 3)     43,852        -           -           43,852       43,852      151,053        (107,201)

TOTAL                     $339,353   $    -      $    -         $339,353     $339,353   $1,230,000       $(890,647)




                                See accompanying notes to financial statements.                                  I-18
                                                                             EXHIBIT O

                                     NORWEGIAN PEOPLE’S AID 


          FUND ACCOUNTABILITY STATEMENT FOR GRANT # DFD-G-00-05-00021-00

                     FOR THE YEAR ENDED DECEMBER 31, 2010




UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

Award # DFD-G-00-05-00021-00 - Sudan

Period of Performance: January 1, 2005 to September 30, 2006

Total Amount Awarded: $7,497,238

Total Obligated Amount: $7,497,238

Total Cost Share: $1,459,387


Balance Due from (to) USAID at December 31, 2009                            $ (263,582)

  Receipts                                                                       -

  Eligible Expenditures                                                          -

BALANCE DUE FROM (TO) USAID AT DECEMBER 31, 2010                            $ (263,582)




                          See accompanying notes to financial statements.            I-19
                                                                              EXHIBIT P

                                     NORWEGIAN PEOPLE’S AID 


          FUND ACCOUNTABILITY STATEMENT FOR GRANT # DFD-G-00-06-00070-00

                     FOR THE YEAR ENDED DECEMBER 31, 2010




UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

Grant # DFD-G-00-06-00070-00 - Sudan

Period of Performance: January 1, 2006 to April 30, 2007

Total Amount Awarded: $6,509,880

Total Obligated Amount: $6,509,880


Balance Due from (to) USAID at December 31, 2009                              $(29,414)

    Receipts                                                                      -

    Eligible Expenditures                                                         -

BALANCE DUE FROM (TO) USAID AT DECEMBER 31, 2010                              $(29,414)




                            See accompanying notes to financial statements.           I-20
                                                                              EXHIBIT Q

                                    NORWEGIAN PEOPLE’S AID 


          FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-08-GR-036

                     FOR THE YEAR ENDED DECEMBER 31, 2010




UNITED STATES DEPARTMENT OF STATE

Grant # S-PMWRA-08-GR-036 - Sudan

Period of Performance: June 1, 2008 to May 31, 2009

Total Amount Awarded: $650,000

Total Obligated Amount: $650,000


Balance Due from (to) USDOS at December 31, 2009                                $   8,320

    Receipts                                                                        -

    Eligible Expenditures                                                           -

BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                $   8,320




                            See accompanying notes to financial statements.         I-21
                                                                              EXHIBIT R

                                     NORWEGIAN PEOPLE’S AID 


          FUND ACCOUNTABILITY STATEMENT FOR GRANT # DFD-G-00-09-00097-00

                     FOR THE YEAR ENDED DECEMBER 31, 2010




UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

Grant # DFD-G-00-09-00097-00 - Sudan

Period of Performance: February 1, 2009 to January 31, 2010

Total Amount Awarded: $1,494,996

Total Obligated Amount: $1,494,996


Balance Due from (to) USAID at December 31, 2009                              $ 457,719

    Receipts                                                                   (494,996)

    Eligible Expenditures                                                         -

BALANCE DUE FROM (TO) USAID AT DECEMBER 31, 2010                              $ (37,277)




                            See accompanying notes to financial statements.           I-22
                                                                              EXHIBIT S

                                     NORWEGIAN PEOPLE’S AID 


          FUND ACCOUNTABILITY STATEMENT FOR GRANT # DFD-G-00-08-00053-00

                     FOR THE YEAR ENDED DECEMBER 31, 2010




UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

Grant # DFD-G-00-08-00053-00 - Sudan

Period of Performance: January 1, 2008 to December 31, 2008

Total Amount Awarded: $2,997,755

Total Obligated Amount: $2,997,755


Balance Due from (to) USAID at December 31, 2009                              $(17,083)

    Receipts                                                                      -

    Eligible Expenditures                                                         -

BALANCE DUE FROM (TO) USAID AT DECEMBER 31, 2010                              $(17,083)




                            See accompanying notes to financial statements.           I-23
                                                                              EXHIBIT T

                                     NORWEGIAN PEOPLE’S AID 


           FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-08-GR-013

                      FOR THE YEAR ENDED DECEMBER 31, 2010




UNITED STATES DEPARTMENT OF STATE

Award # S-PMWRA-08-GR-013 - Angola

Period of Performance: May 1, 2008 to April 30, 2009

Total Amount Awarded: $1,426,721

Total Obligated Amount: $1,426,721


Balance Due from (to) USDOS at December 31, 2009                              $ (21,715)

    Receipts                                                                      -

    Eligible Expenditures                                                         -

BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                              $ (21,715)




                            See accompanying notes to financial statements.           I-24
                                                                              EXHIBIT U

                                    NORWEGIAN PEOPLE’S AID


            FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-08-GR-089

                       FOR THE YEAR ENDED DECEMBER 31, 2010




UNITED STATES DEPARTMENT OF STATE

Award #S-PMWRA-08-GR-089 - Cambodia

Period of Performance: May 1, 2008 to April 30, 2009

Total Amount Awarded: $99,976

Total Obligated Amount: $99,976


Balance Due from (to) USDOS at December 31, 2009:                              $ 14,520

    Receipts                                                                       -

    Eligible Expenditures                                                          -

BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                               $ 14,520




                            See accompanying notes to financial statements.         I-25
                                                                               EXHIBIT V

                                     NORWEGIAN PEOPLE’S AID


            FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-07-GR-077

                       FOR THE YEAR ENDED DECEMBER 31, 2010




UNITED STATES DEPARTMENT OF STATE

Award #S-PMWRA-07-GR-077 - Cambodia

Period of Performance: April 27, 2007 to April 30, 2008

Total Amount Awarded: $99,914

Total Obligated Amount: $99,914

Cost Share Required: $132,135


Balance Due from (to) USDOS at December 31, 2009:                               $ (5,951)

     Receipts                                                                       -

     Eligible Expenditures                                                          -

BALANCE DUE FROM (TO) USDOS AT DECEMBER 31, 2010                                $ (5,951)




                             See accompanying notes to financial statements.            I-26
                                                                              EXHIBIT W

                                    NORWEGIAN PEOPLE’S AID


            FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-06-GR-056 

                       FOR THE YEAR ENDED DECEMBER 31, 2010




UNITED STATES DEPARTMENT OF STATE

Award #S-PMWRA-06-GR-056 - Cambodia

Period of Performance: April 1, 2006 to March 31, 2008

Total Amount Awarded: $38,404

Total Obligated Amount: $38,404


Balance Due from USDOS at December 31, 2009:                                     $ 2,067

    Receipts                                                                        -

    Eligible Expenditures                                                           -

BALANCE DUE FROM USDOS AT DECEMBER 31, 2010                                      $ 2,067




                            See accompanying notes to financial statements.         I-27
                                       NORWEGIAN PEOPLE’S AID


                                  NOTES TO FINANCIAL STATEMENTS 

                                        DECEMBER 31, 2010 




1.    SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES AND GENERAL INFORMATION

      Organization -

       Norwegian People’s Aid (NPA) is a non-governmental organization (NGO) located in Oslo,
       Norway. NPA is a membership governed organization, which stands on four pillars of equal
       worth: youth work, health and rescue work, socially targeted work and international work. NPA
       bases much of its activity on members’ voluntary work.

       In NPA’s national, international youth, and health and rescue work, the following areas are
       promoted:

             The fight against oppression, poverty and unjust distribution

             The fight against racism and discrimination 

             Work for equality and against violence and injustice

             Prevention, voluntary engagement and competence building


      Basis of presentation -

       The accompanying fund accountability statements have been prepared on the accrual basis of
       accounting and present only the transactions of NPA’s program grants and contracts with the
       United States Government. Accordingly, the fund accountability statements are not intended to
       present fairly all transactions of NPA taken as a whole.

      Property and equipment -

       NPA’s policy is to expense all property and equipment acquired with U.S. Government funding and
       charge it to the corresponding grant award. Title to the property and equipment vests to NPA in
       accordance with the standard provisions.

     Currency valuation -

       NPA’s financial transactions are recorded using the Norwegian Kroner. NPA’s policy is to convert all
       monthly revenue and expense transactions incurred in foreign currencies using a weighted
       average; and to convert all foreign currency assets and liabilities at the end of the month using the
       spot rate on the last day of the month between the Kroner and the foreign currencies.

       For purposes of the accompanying fund accountability statements, all revenue and expense
       transactions have been converted to the United States Dollar using a monthly weighted average
       methodology between the Kroner and the Dollar.

     Fund balance -

       The amounts reported in the accompanying Fund Accountability Statements as amounts due
       from (to) the United Stated Agency for International Development (USAID) and Department of
       State (USDOS) represent the fund balance of each respective grant award as of December 31,
       2010 and 2009.


2.    INELIGIBLE AND UNSUPPORTED COSTS

      Ineligible costs consist of expenses included in grant expenditures that did not meet certain criteria
      stipulated in the provisions of the grant awards.



                                                                                                        I-28
                                   NORWEGIAN PEOPLE’S AID


                                NOTES TO FINANCIAL STATEMENTS 

                                      DECEMBER 31, 2010 




2.   INELIGIBLE AND UNSUPPORTED COSTS (Continued)

     Unsupported costs consist of expenses included in grant expenditures that did not have appropriate
     documentation to support the expense. Following is a summary, by grant, of the ineligible and
     unsupported costs:

                                  Award # DFD-G-00-10-00068-00

            Ineligible: 

            Seeds and tools                                                   $ 35,227



                                   Award #S-PMWRA-10-GR-066

            Ineligible:
            Other                                                               $ 4,000
            Indirect (Note 3)                                                       594

                                                                                $ 4,594


                                   Award #S-PMWRA-09-GR-112

            Ineligible:
            Equipment                                                           $ 8,728
            Indirect (Note 3)                                                     1,295

                                                                                $10,023


                                   Award #S-PMWRA-09-GR-004

            Unsupported:
            Equipment                                                          $ 4,934
            Indirect (Note 3)                                                      732

                                                                               $ 5,666


3.   INDIRECT CHARGES

     The accompanying indirect charges have been calculated using NPA’s actual indirect rates for the
     year ended December 31, 2010 of 14.84%. On certain grant agreements, the cumulative indirect
     costs charged exceeded the indirect budget line item as proposed by NPA. However, the formal grant
     awards stipulated grant budgets by objective rather than by specific line item.

     The accompanying fund accountability statements reflect the indirect costs calculated on all costs
     except the sub-contract amounts.




                                                                                                   I-29
                                    NORWEGIAN PEOPLE’S AID


                               NOTES TO FINANCIAL STATEMENTS 

                                     DECEMBER 31, 2010 




4.   PRIOR PERIOD ADJUSTMENT - CORRECTION OF AN ERROR

     The balance of the Due From (To) USAID as of December 31, 2009 has been retroactively restated
     to correct for errors in reporting the actual cash received from the commencement date of the award
     through December 31, 2009. The effect of the restatement was to reduce the amount reported as
     Due From (To) USAID by $4,031,187 as of December 31, 2009.




                                                                                                    I-30
                     INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL 




To the Board of Directors
Norwegian People’s Aid
Oslo, Norway


         We have audited the fund accountability statements of Norwegian People’s Aid’s (NPA) as of and
for the year ended December 31, 2010, and have issued our report thereon dated January 17, 2013. We
have also reviewed the separate cost-sharing contributions schedule.

         We conducted our audit in accordance with U.S. Government Auditing Standards, issued by the
Comptroller General of the United States. In planning and performing our audit, we considered NPA’s
internal control over financial reporting (internal control) as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of NPA’s internal control. Accordingly, we do not express an opinion on the
effectiveness of NPA’s internal control.

         Our consideration of NPA’s internal control was for the limited purpose described in the preceding
paragraph and was not designed to identify all deficiencies in NPA’s internal control that might be significant
deficiencies or material weaknesses and therefore, there can be no assurance that all deficiencies,
significant deficiencies, or material weaknesses have been identified. However, as discussed below, we
identified certain deficiencies in NPA’s internal control that we considered to be material weaknesses and
other deficiencies that we consider to be significant deficiencies.

        A deficiency in NPA’s internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination of
deficiencies, in NPA’s internal control, such that there is a reasonable possibility that a material
misstatement of NPA’s financial statements will not be prevented, or detected and corrected on a timely
basis. We consider the following deficiencies in NPA’s internal control to be material weaknesses:

                                         MATERIAL WEAKNESSES
        Sudan:

        	   NPA did not adhere to its established procurement policies and procedures (please refer to
             our comments titled “Procurement of Seeds” and “Procurement Documentation” in Section
             IV-Independent Auditors’ Report on Findings and Recommendations).

        	   Significant journal entries were made which were not properly supported (please refer to our
             comment titled “Journal Entries” in Section IV-Independent Auditors’ Report on Findings and
             Recommendations).


                 4550 Montgomery Avenue • Suite 650 North • Bethesda, Maryland 20814 
                         (301) 951‐9090 • Fax: (301) 951‐3570 • www.grfcpa.com 
                                                       
             Member of CPAmerica International, an Affiliate of Crowe Horwath International
 
     Member of the American Institute of Certified Public Accountants’ Public Companies Practice Section
 

                                                                                                             II-1
        	   Timesheets were incomplete and there were instances where the amount of salary expense
             charged to the U.S. Government award did not correspond to the hours indicated on the
             timesheets (please refer to our comment titled “Timesheets” Section IV-Independent Auditors’
             Report on Findings and Recommendations).
        	   Cash Management: bank reconciliations were not properly completed, reviewed or approved
             and petty cash counts were not properly conducted or accurate (please refer to our comment
             titled “Cash Management” in Section IV-Independent Auditors’ Report on Findings and
             Recommendations).
        	   Reporting of Known Fraud: Significant fraud (approximately $300,000) during the 2011 fiscal
             year (please refer to our comment titled “Reporting of Known Fraud” in Section IV-
             Independent Auditors’ Report on Findings and Recommendations).
        Angola:
        	   Timesheets were missing or incomplete (please refer to our comment titled “Timesheets”
             Section IV-Independent Auditors’ Report on Findings and Recommendations).

        Laos:
        	   Timesheets were missing or incomplete (please refer to our comment titled “Timesheets”
             Section IV-Independent Auditors’ Report on Findings and Recommendations).
        Jordan/Iraq:
        	   Timesheets were missing or incomplete (please refer to our comment titled “Timesheets”
             Section IV-Independent Auditors’ Report on Findings and Recommendations).

                                  ________________________________________


                                       SIGNIFICANT DEFICIENCIES
        A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit the attention by those charged with
governance. We consider the following deficiencies in NPA’s internal control to be significant deficiencies:

        Sudan:
        	   Inventory was not properly controlled (please refer to our comment titled “Control of
             Inventory” in Section IV-Independent Auditors’ Report on Findings and Recommendations).
        	   Personnel files were incomplete (please refer to our comment titled “Personnel Contracts” in
             Section IV-Independent Auditors’ Report on Findings and Recommendations).
        	   Financial records were not properly filed and difficult to locate (please refer to our comment
             titled “Organization of Financial Documents” in Section IV-Independent Auditors’ Report on
             Findings and Recommendations).
        	   Numerous instances of payment vouchers not properly signed and dated (please refer to our
             comment titled “Internal Payment Vouchers” in Section IV-Independent Auditors’ Report on
             Findings and Recommendations).

        Laos:

        	   Purchase of equipment and vehicles were not properly allocated between donors. (please
             refer to our comment titled “Purchase Equipment and Vehicles” in Section IV-Independent
             Auditors’ Report on Findings and Recommendations).

                                  ________________________________________



                                                                                                           II-2
        We also noted other matters involving the internal control and its operation that we have reported in
a separate letter dated January 17, 2013 (please refer to Section IV-Independent Auditors’ Report on
Findings and Recommendations).

         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




January 17, 2013




                                                                                                         II-3
                        INDEPENDENT AUDITORS' REPORT ON COMPLIANCE 




To the Board of Directors
Norwegian People’s Aid
Oslo, Norway


         We have audited the fund accountability statements of Norwegian People’s Aid (NPA) as of and for
the year ended December 31, 2010, and have issued our report thereon dated January 17, 2013. We have
also reviewed the separate cost-sharing contributions schedule.

        We conducted our audit in accordance with U.S. Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether the fund accountability statements are free of material
misstatement resulting from violations of agreement terms and laws and regulations that have a direct and
material effect on the determination of the fund accountability statements amounts.

        Compliance with agreement terms and laws and regulations applicable to NPA is the responsibility
of NPA’s management. As part of obtaining reasonable assurance about whether the fund accountability
statements are free of material misstatement, we performed tests of NPA’s compliance with certain
provisions of agreement terms and laws and regulations. However, our objective was not to provide an
opinion on overall compliance with such provisions. Accordingly, we do not express such an opinion.

        Material instances of noncompliance are failures to follow requirements or violations of agreement
terms and laws and regulations that cause us to conclude that the aggregation of misstatements resulting
from those failures or violations is material to the fund accountability statements. The results of our audit
disclosed the following material instance of noncompliance (please refer to Section IV of our report for
management’s responses to our findings):

                                                  SUDAN
                                          Procurement of Seeds

Prior Years Condition: Our audit testwork for the year ended December 31, 2009, noted that NPA did not
procure the required seed certificates mandated by the terms and conditions of the USAID awards. We
continue to recommend that the individuals responsible for the procurement of seeds be aware of the U.S.
Government regulations before procuring the seeds. If it is deemed too difficult to procure the proper
certificates, we recommend that the staff responsible for procuring the seeds request a waiver from USAID
(this is generally done at the time a proposal is submitted to USAID).

December 31, 2010 Status: NPA did not procure the required seed certificates mandated by the terms
and conditions of the USAID awards, resulting in a questioned cost to the USAID program of $35,227.
NPA did document its own procedures to have the selected seeds tested. We continue to recommend that
the staff responsible for procuring the seeds request a waiver from USAID.


                 4550 Montgomery Avenue • Suite 650 North • Bethesda, Maryland 20814 
                         (301) 951‐9090 • Fax: (301) 951‐3570 • www.grfcpa.com 
                                                       
             Member of CPAmerica International, an Affiliate of Crowe Horwath International
 
     Member of the American Institute of Certified Public Accountants’ Public Companies Practice Section

                                                                                                            III-1
                                     Procurement Documentation

Prior Years Condition: While we noted improvement in the documentation and adherence with
established policies and procedures, we continued to note the following:

       Non-compliance with established NPA procurement policies (i.e. documentation of the fact that
        there was a proper tender procedure for large purchases (in excess of $40,000);
       Justification for selection of vendors was not documented.

We strongly recommend that all employees responsible for the procurement of goods and services be
reminded of NPA’s current procurement policies. All responsible employees should also be reminded of
the fact that non-compliance with such policies may put NPA at risk of returning U.S. Government funds,
which were used to pay for goods and services for which NPA did not adhere to its procurement policies.

December 31, 2010 Status: There was significant improvement with respect to the procurement process
based on prior years. However, in certain instances, although bids were attached to the support, the
procurement analysis summarizing decision was missing. We also noted that procurement procedures
were not followed for one fuel provider; instances where only two bids were provided but the required
waiver was either not attached or not filled out; one instance where it appeared procurement should have
been completed (over the $5,000 threshold) but none was available. We continue to recommend that all
employees responsible for the procurement of goods and services be reminded of NPA’s current
procurement policies.

                                 ________________________________________


        We considered the material instances of noncompliance in forming our opinion on whether NPA’s
2010 fund accountability statements are presented fairly, in all material respects, in accordance with the
terms of the agreements and in conformity with the basis of accounting described in Note 1 to the fund
accountability statements, and this report does not affect our report on the fund accountability statements
dated January 17, 2013.

         We also noted certain immaterial instances of noncompliance that we have reported to the
management of NPA in our report on findings and recommendations dated January 17, 2013 (please
refer to Section IV-Independent Auditors’ Report on Findings and Recommendations).

         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




January 17, 2013




                                                                                                       III-2
                                 INDEPENDENT AUDITORS' REPORT 

                               ON FINDINGS AND RECOMMENDATIONS 




To the Board of Directors
Norwegian People’s Aid
Oslo, Norway


         In planning and performing our audit of the fund accountability statements of Norwegian People’s
Aid (NPA) as of and for the year ended December 31, 2010, in accordance with auditing standards
generally accepted in the United States of America, we considered NPA’s internal control over financial
reporting as a basis for designing our auditing procedures, for the purpose of expressing our opinion on
the fund accountability statements, but not for the purpose of expressing an opinion on the effectiveness
of NPA’s internal control. Accordingly, we do not express an opinion on the effectiveness of NPA’s
internal control.

         Our consideration of NPA’s internal control was for the limited purpose described in the preceding
paragraph and was not designed to identify all deficiencies in NPA’s internal control that might be
significant deficiencies or material weaknesses and therefore, there can be no assurance that all such
deficiencies have been identified. However, as discussed below, we identified certain deficiencies in
NPA’s internal control that we consider to be material weaknesses and other deficiencies that we
consider to be significant deficiencies.

        A deficiency in NPA’s internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency or combination
of deficiencies in NPA’s internal control, such that there is a reasonable possibility that a material
misstatement of NPA’s financial statements will not be prevented, or detected and corrected on a timely
basis. We consider the following deficiencies in NPA’s internal control to be material weaknesses:

                                        MATERIAL WEAKNESSES

                                                 (SUDAN)

                                          Procurement of Seeds

Prior Years Comment: Our audit testwork over the USAID awards for the years ended December 31,
2005, 2006, 2007, 2008 and 2009 revealed that NPA did not procure the required seed certificates
mandated by the terms and conditions of the USAID awards. We continue to recommend that the
individuals responsible for the procurement of seeds be aware of the U.S. Government regulations before
procuring the seeds. If it is deemed too difficult to procure the proper certificates we recommend that the
staff responsible for procuring the seeds request a waiver from USAID (this is generally done at the time a
proposal is submitted to USAID).


                 4550 Montgomery Avenue • Suite 650 North • Bethesda, Maryland 20814 
                         (301) 951‐9090 • Fax: (301) 951‐3570 • www.grfcpa.com 
                                                       
             Member of CPAmerica International, an Affiliate of Crowe Horwath International
 
     Member of the American Institute of Certified Public Accountants’ Public Companies Practice Section

                                                                                                            IV-1
December 31, 2010 Status: NPA did not procure the required seed certificates mandated by the terms
and conditions of the USAID awards, resulting in a questioned cost to the USAID program of $30,675.
NPA did document its own procedures to have the selected seeds tested. We continue to recommend that
the staff responsible for procuring the seeds request a waiver from USAID.
Management Response: NPA has requested for waivers on seeds purchased locally and indicated that
we cannot obtain seed growers certification. Further, for seeds procured from East Africa we have always
provided seed certificates. However, as noted above for seeds purchased locally have always provided the
required documents indicating quality assurance practices followed in lieu of the certification. The
management believes that it has fully complied on this issue.

                                             Journal Entries
Prior Years Comment: Our 2005, 2006, 2007, 2008 and 2009 audit testwork revealed that significant
journal entries were made throughout the fiscal years without proper supporting documentation. In
addition, the purpose for the entries was generally not well documented. We strongly recommend that all
journal entries posted to the general ledger contain a description of why the entries were proposed as
well as copies of the original source documentation (i.e. invoices, purchase orders, contracts, etc.) which
would support the entries.
December 31, 2010 Status: Once again, we noted several correcting or reclassifying entries with no
indication of explanation or approval. We also noted one instance where support clearly indicated that
vehicle fuel expense which was reclassified to programs were “admin” related, but reclassification was
made based on knowledge that the vehicles were actually used for program purposes. No documentation
was available to support this determination. We continue to recommend that all adjusting journal entries
be reviewed and approved prior to being posted into the general ledger.
Management Response: Due to the vastness of the area we are operating in it is not always possible to
have all program managers at the head office to physically approve reclassification. Because of this email
communication serves as an approval for journal entries supporting reclassification. Management agrees
that some of these emails were not attached to the entries. We will ensure that in future this miss is not
repeated.
                                               Timesheets

Prior Years Comment: Our examination of the timesheet process during the fiscal year ending
December 31, 2009 revealed the following:
   Instances where timesheets were missing (7 out of 92 tested).
   For approximately 25% of our sample of timesheets tested, salary expense recorded in the general
    ledger did not match the salary expense which should have been recorded in the general ledger
    based upon the hours recorded on the timesheets.
Accordingly, based upon the aforementioned items, we recommend that all employees be continually
reminded of the importance of completing accurate timesheets.
December 31, 2010 Status: Our examination of the timesheet process revealed instances where hours
recorded did not add across or down on the timesheets; Instances where timesheets did not indicate the
programs worked on during the month; Instances where the salary expense recorded in the general
ledger did not match the salary expense which should have been recorded in the general ledger based
upon the hours recorded on the timesheets; Instances where the salary expense recorded in the general
ledger did not agree to the amount reported in the payroll summary; Instances where timesheets were
missing. We strongly recommend management continue to focus on this weakness.
Management Response: For the first time we did not miss any timesheets, this has been the challenge
over the years. We have managed to centralize payroll as of July 2011 which we consider a major
milestone which will see an improvement of the quality of timesheets. In October 2011 we started to send
timesheets out on a monthly basis to Program managers to verify all info regarding coding, signatures,
and the hours charged. Human Resource and Finance had one day comprehensive training in December
2011 on timesheets and coding. We have started seeing good progress and improvement on this area in
the recent past.
                                                                                                      IV-2
                                    Procurement Documentation

Prior Years Comment: As a result of our audit testwork over NPA-Sudan’s procurement process we
noted the following deficiencies:

   Non-compliance with established NPA procurement policies (including the receipt of bids and the
    review and acceptance by procurement committee);
   Sole source justification was not documented;
   Justification for selection of vendors was not documented.

We strongly recommend that all employees responsible for the procurement of goods and services be
reminded of NPA’s current procurement policies. All responsible employees should also be reminded of
the fact that non-compliance with such policies may put Norwegian People’s Aid at risk of returning U.S.
Government funds, which were used to pay for goods and services for which Norwegian People’s Aid did
not adhere to its procurement policies.
December 31, 2009 Status: Although, we noted improvement in the documentation and adherence with
established policies and procedures, documentation of the vendor selection process could be improved.
Each procurement analysis should include a memo stating the reason why a particular vendor was
selected. In addition, for large purchases (in excess of $40,000), NPA-Sudan should document that a
tender notice was published, as required by NPA’s current procurement policy.
December 31, 2010 Status: There was significant improvement with respect to the procurement process
based on prior years. However, in certain instances, although bids were attached to the support, the
procurement analysis summarizing decision was missing. We also noted that procurement procedures
were not followed for one fuel provider; instances where only two bids were provided but the required
waiver was either not attached or not filled out; one instance where it appeared procurement should have
been completed (over the $5,000 threshold) but none was available.
We continue to recommend that all employees responsible for the procurement of goods and services be
reminded of NPA’s current procurement policies.
Management Response: We will continue to work on this area to endure fully compliance with
procurement policies. The mentioned instances, is majorly occurred not that due process was not
followed but all the necessary documents were not attached to the voucher. We have conducted two
workshops in 2011 whereby we had a review of procurement policies and emphasized strict adherence to
them and proper documentation.

                               Partner and Sub-Recipient Monitoring
December 31, 2009 Comment: We noted that partner reporting is not timely, resulting in September
2008 advances not being cleared from NPA books until June of 2010. In addition, none of the four
partners tested during fiscal 2009 received a site visit in either 2008 or 2009. We strongly recommend
that if NPA continues to work with partner organizations in the future, site visits must be more timely
(quarterly is recommended) and the documentation of such visits is crucial to documenting that NPA-
Sudan is properly monitoring its partners.
December 31, 2010 Status: There were no significant sub-recipient transactions during the fiscal year
2010. Accordingly, we consider this comment to be cleared.

                                          Cash Management
Prior Years Comment: Based on our audit testwork conducted in Yei, South Sudan, we noted bank
reconciliations and petty cash counts were not properly prepared and reviewed.
December 31, 2010 Status: Based on our review of the December bank and imprest cash
reconciliations, we noted five bank reconciliations which include several reconciling items which were
posted by the bank but not by NPA. In each of the cases, the transactions occurred during the year, but
remained on the bank reconciliation at December 31, 2010. We also noted certain reconciliations or cash
counts which were either not signed by the preparer.


                                                                                                    IV-3
Management Response: The open reconciling items posted by bank were banker’s cheques which
were never paid out majorly because central bank had changed regulation on cheque thresholds, so we
had to do a bank transfer. The process of getting the money credited back to our account was lengthy,
that we closed the year before this was affected. All, these items cleared in 2011. On reconciliations not
signed, this happens when we have things which need to be clarified from the field. We only sign when
we are satisfied with the status of the reconciliation.

                                       Reporting of Known Fraud

December 31, 2010 Comment and Recommendation: Based upon discussions with management of the
NPA-South Sudan office, we were informed that the office incurred significant fraud (approximately
$300,000) during the 2011 fiscal year. The embezzlement of funds was the result of payments made to
fictitious vendors not detected due to the fact that there was a change in banking systems used by the NPA-
South Sudan office as well as the fact that the bank accounts were not reconciled in a timely manner
(please refer to our comment titled “Cash Management” below for additional information).
While we believe that proper procedures have been put in place as a result of discovering the fraudulent
activity, we strongly recommend that management adhere to the controls over cash as dictated by NPA
policies and procedures.

It should also be noted that none of the charges resulting from the fraudulent activity were charged to any
donor programs.

                                                (ANGOLA)
                                                Timesheets

Prior Years Comment: Our 2007, 2008 and 2009 audit work revealed that timesheets have been revised

to document all hours worked. However, our audit work disclosed the following:


   Missing timesheets.

   Timesheets missing employee signature. 

   Timesheets missing supervisor signature.


Based upon the aforementioned items, we recommend the following: 


   The finance and HR departments should be more diligent in their review of the timesheets, thus,

    ensuring that all employees have completed their monthly timesheets.
   All timesheets should be signed and dated by the employees and the employees’ supervisor, thus,
    indicating a proper review and approval of the timesheets.

December 31, 2010 Status: Our audit work continued to reveal instances of missing timesheets as well
as instances where the salary expense recorded in the general ledger did not match the salary expense
which should have been recorded based upon the hours recorded on the timesheets.

Management Response: We have continued our work to improve the quality of the timesheets and will
ensure that all timesheets are present, properly signed by the employees and the supervisor. In addition,
all allocations will be reviewed to ensure salary expense is properly allocated based upon time reported
on the timesheets.

                                                 (LAOS)
                                      Timesheets (Vietnam Office)

December 31, 2010 Comment: Our audit work over the payroll cycle Vietnam program revealed that the
timesheets that the employees completed did not indicate the program that the employees were working
on during the month.



                                                                                                      IV-4
Criteria: U.S. government regulations require that all employees working on U.S. funded programs
maintain daily time reports which detail the programs on which the employee worked.
Questioned Costs: Undetermined
Context, Effect and Cause: Without maintaining daily activity reports for all employees in the field, it is
possible that salary expense charged to U.S. Government awards may be overstated or understated.
Recommendation: Due to the fact that the Vietnam program is funded by the USDOS and the
Norwegian Government (MFA), we strongly recommend that the timesheets be amended so that all
donors are designated on the timesheets and that the employees are instructed to complete the
timesheets indicating which donor programs on which they worked.
Management Response: Revised template identifying grant/s and percentage share will be implemented
per July 2011.

                                           (JORDAN AND IRAQ)
                                         Timesheets (Expatriates)
December 31, 2010 Comment: Our audit work over the payroll cycle for the Jordan and Iraq USDOS
awards revealed that certain expats working under the Jordan award did not complete monthly
timesheets and that one employee working under the Iraq award did not sign his monthly timesheets
(however, the employee’s timesheets were signed by the employee’s supervisor).
Criteria: U.S. Government regulations require that all employees working on U.S. funded programs
maintain daily time reports which detail the programs on which the employee worked.
Questioned Costs: Undetermined
Context, Effect and Cause: Without maintaining daily activity reports for all employees in the field, it is
possible that salary expense charged to U.S. Government awards may be overstated or understated.
Recommendation: We strongly recommend that all employees working under U.S. Government awards
be reminded of the requirement to properly complete monthly timesheets. In addition, all timesheets
should be signed and dated by the employees upon submission.
Management Response: NPA will do its best to avoid similar cases in the future.

                                  ________________________________________


                                       SIGNIFICANT DEFICIENCIES
         A significant deficiency is a deficiency, or a combination of deficiencies, in NPA’s internal control,
that is less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We consider the following deficiencies in NPA’s internal control to be significant
deficiencies:

                                                  (SUDAN)
                                            Control of Inventory

Prior Years Comment: Our review of various inventory cycles and related controls revealed the
following:
   Certain inventory stores lacked bin control cards (general equipment store). 

   Certain inventory stores lacked up to date inventory lists (medical supplies) or the inventory list did

    not exist (vehicles parts, general equipment store).
   Unit costs were not clearly documented on inventory lists or related inventory documents.




                                                                                                          IV-5
	   The inventory process lacked identification numbers and proper documentation supporting
     distribution and use of inventory. Issue notes or inventory distributions reports filed by team did not
     clearly identify the items issued from any store. Vehicle spare parts were identified on vehicle job
     cards, however lacked the part number related to the bin cards.
	   Inventory lists are not reviewed by management on a regular basis.

Subpart C of Office of Management and Budget (OMB) Circular A-110, “Uniform Administrative
Requirements for Grants and Agreements with Institutes of Higher Education, Hospitals, and Other Non-
Profit Organizations,” requires that recipient’s property management standards for equipment acquired
with Federal funds and federally-owned equipment shall include but not be limited to the following:

     (1) Equipment records shall be maintained accurately and shall include the following information.

         (i) A description of the equipment.

         (ii) Manufacturer’s serial number, model number, Federal stock number, national stock number,
         or other identification number.

         (iii) Source of the equipment, including the award number.

         (iv) Whether title vests in the recipient or the Federal government.

         (v) Acquisition date (or date received, if the equipment was furnished by the Federal Government)
         and cost.

         (vi) Information from which one can calculate the percentage of Federal participation in the cost of
         the equipment (not applicable to equipment furnished by the Federal government).

         (vii) Location and condition of the equipment and the date the information was reported.

         (viii) Unit acquisition cost.

         (ix) Ultimate disposition data, including date of disposal and sales price or the method used to
         determine current fair market value where recipient compensates the Federal awarding agency
         for its share.

     (2) Equipment owned by the Federal government shall be identified to indicate Federal ownership.

     (3) A physical inventory of equipment shall be taken and the results reconciled with the equipment
         records at least once every two years (we strongly recommend annually).
         Any differences between quantities determined by the physical inspection and those shown in the
         accounting records shall be investigated to determine the causes of the difference. The recipient
         shall, in connection with the inventory, verify the existence, current utilization, and continued need
         for the equipment.

     (4) A control system shall be in effect to insure adequate safeguards to prevent loss, damage, or
         theft of the equipment. Any loss, damage, or theft of equipment shall be investigated and fully
         documented; if the equipment was owned by the Federal government, the recipient shall promptly
         notify the Federal awarding agency.

     (5) Adequate	 maintenance procedures shall be implemented to keep the equipment in good
         condition.

     (6) Where the recipient is authorized or required to sell the equipment, proper sales procedures shall
         be established which provide for competition to the extent practicable and result in the highest
         possible return.




                                                                                                          IV-6
December 31, 2008 and 2009 Status: During our audit testwork for the years ended December 31, 2008
and 2009, we noted improvement over the control of inventory and corresponding records. However, we
believe additional attention is required in this area. We recommend management continue to monitor the
progress over the control of inventory.

December 31, 2010 Status: During our review of the Juba office inventory records, we noted that the
inventory lists were incomplete. We were unable to find the majority of the IT equipment selected in the
Juba office. We strongly recommend management continue to focus on this area.

Management Response: Inventory list have been received from all locations. Physical checks are
ongoing since we have started field visit on regular basis. We will continue to work on this area to ensure
that we are updated.

                                          Personnel Contracts

Prior Years Comment: Our audit testwork over payroll revealed that certain personnel files were not
complete and up-to-date. We recommend that management review all personnel files to ensure that all
employee contracts are current and up-to-date.

December 31, 2010 Status: We noted two instances of missing contracts. In addition, we noted three
instances where the amount of money paid to the employee did not agree to the amount in the
employees’ contract. We continue to recommend management focus on this area.

Management Response: We are not aware of any contracts missing or any case where the amount paid
is not tying to the contract.

                                 Organization of Financial Documents

Prior Years Comment: Our audit revealed that the field office financial records pertaining to fiscal years
2006 2007, 2008 and 2009 were not filed in a consistent manner and at times were difficult to locate. We
strongly recommend that the members of the finance and accounting department be more diligent in the
filing of the documents which support the accounting transactions for the South Sudan programs.

December 31, 2010 Status: We again concluded that financial records were not filed in a consistent
manner. We believe management should review the current voucher numbering system to assess if any
improvement can be made to assist the audit trail.

Management Response: Our filing is consistent, but since we have to re-organize the vouchers
according to audit samples and transport them from Yei to Juba for audit the order is always interrupted.
Nevertheless, we are always able to provide all requested files.

                                      Internal Payment Vouchers

Prior Years Comment: During the course of our 2006, 2007, 2008 and 2009 audit, we noted numerous
instances in which Norwegian People’s Aid’s internal payment vouchers were not signed and dated
indicating approval.

We strongly suggest that all payment vouchers be signed and dated by the appropriate individuals
indicating approval for payment. In addition, we recommend that members of the accounting department
be notified that payments are not to be processed until a signed and dated payment voucher is received
by the accounting department.

December 31, 2010 Status: We noted instances where signature areas required based on thresholds
described on the payment authorization form were blank, purportedly because the payment was made in
a remote field office where the required signer position does not exist. Payment authorization forms
should be tailored to avoid the appearance that NPA is not complying with their approval requirements.



                                                                                                      IV-7
We also noted that in many cases no payment authorization form was attached to the supporting
documentation. Per discussion with the client this was due to NPA Sudan’s decision that it is not
necessary to attach a payment authorization form when an approved purchase order is present. We
recommend that a payment authorization form be attached to each disbursement.

In addition, we noted numerous instances where the general ledger coding (functional and or program)
was not noted on the payment authorization form, purchase order, or supporting documentation. We
recommend that all disbursements include general ledger coding.

Management Response: NPA Sudan has two payment authorization forms one used by Juba head
office where major payments take place. This form has to be signed by four people. Another one is used
in the field for imprest accounting with two signatures.

The mentioned incident is where staff was transferred from Juba to the field and kept using the HO (Juba)
form. This makes it look as if it is missing signatures. The management is working on ensuring that right
templates are used where necessary.

On the recommendation of having payment authorization form on top of fully approved LPO management
will consider this and implement if it is absolutely necessary.


                                                (LAOS)
                                Purchase of Equipment and Vehicles

December 31, 2010 Comment: During our audit work we noted that the purchase of equipment and
vehicles was not properly allocated between donors. In fact, we noted that in one case a deposit for 50%
of the cost of the equipment was charged to one donor and the second 50% payment was charged to a
different donor. In addition, we noted that two vehicles were purchased and the cost of one vehicle was
to be charged to each donor, however, the amounts charged to the donors were not split evenly, resulting
in a questioned cost to the USDOS program of $8,728.

Criteria: 22 CFR 226 Subpart C Section 21 "Standards for Financial Management Systems" requires
recipients of Federal funds to establish financial management systems that will ensure effective control
over and accountability for all funds, property and other assets.

Questioned Costs: $10,023 (including indirect costs on the direct costs of $1,295) under award #S-
PMWRA-09-GR-112.

Context, Effect and Cause: Lack of critical internal controls increase risk associated with financial
management, and the potential for the misappropriation of funds.

Recommendation: We recommend that the management of the NPA-Laos office implement procedures
to ensure that the purchase of all equipment and vehicles is properly identified and the costs are then
charged to the proper donor based upon the specific equipment or vehicle purchased.

Management Response: None of these incidents are in compliance with NPA policies, as we are aware
of the impossible distribution of one asset to multiple donors. The IT equipment purchased in Vietnam
should have been split by 50/50% sharing of cost by allocating only complete objects to the various
grants. The vehicle purchase in Laos we will reallocated according to the recommendation. We agree
with the comment and will ensure compliance with policies in the future.



                           ________________________________________



                                                                                                    IV-8
                                      OTHER AREAS OF CONCERN
        In addition to the aforementioned material weaknesses and significant deficiencies, we noted
other areas of concern, that while not considered material weaknesses or significant deficiencies, we
believe merit the attention of those charged with governance:

                                                 (SUDAN)
                     Reconciliation and Reporting of Employee Travel Advances

December 31, 2009 Comment: Our 2009 audit work revealed that employee travel advances are not
properly reconciled on a monthly basis. In addition, our audit work revealed that the NPA-Sudan office
does not currently have forms in place to request travel advances or for the clearance of such advances
upon completion of travel. We also noted instances in which advances were given in one currency and
the clearance of the advance was submitted in a different currency without explanation as to how the
receipts related to the claimed expenses or how the exchange rate used was calculated. Based upon the
aforementioned, we recommend that NPA-Sudan adopt and implement forms for all employees to use
when requesting travel advances and when submitting the expenses which would clear the advances. All
forms should require signatures by the employee and the employee’s supervisor which would attest to the
appropriateness and truthfulness of reporting.

We also strongly recommend that the finance department ensure that all employee travel advances are
reconciled on a monthly basis and that employees with outstanding advances be notified of such
balances each month.

December 31, 2010 Status: According to the Finance Controller, a travel advance and reimbursement
form will be completed and implemented in 2011.

Management Response: The NPA-Sudan office has implemented forms for all employees to use when
requesting travel advances and when submitting the expenses which then will clear the advances. All
employee travel advances are being reconciled on a monthly basis. Employees with outstanding travel
advances are getting deducted from payroll.

                                       Classification of Expenses

Prior Years Comment: Our audit testwork for 2005, 2006, 2007, 2008 and 2009 revealed instances
where similar transactions were posted to different accounts within the general ledger. We recommend
that the accounting staff be more diligent in their classification and posting of expenses within the general
ledger.

December 31, 2010 Status: Our audit testwork for 2010 again noted instances where similar
transactions were posted to different accounts within the general ledger. Our prior year recommendation
is repeated.

Management Response: NPA carried out extensive training for all accounting and field budget holders
on classes of costs and coding in March 2011. We have also developed a toolkit for coding which is
circulated to all staff all staff. The toolkit is updated many times as necessary and shared out.

                              Submission of Quarterly Financial Reports

Prior Years Comment: Our audit testwork disclosed instances in which Norwegian People’s Aid did not
submit quarterly financial reports by the deadlines stipulated in the grant agreements. We recommend
Norwegian People’s Aid submit all financial reports by the required due dates in accordance with U.S.
Government regulations.

December 31, 2010 Status: Quarterly financial reports were submitted by the deadlines stipulated in the
grant agreements.
                                                                                                        IV-9
                                               (ANGOLA)
                                         Bank Reconciliations

Prior Years Comment: Our audit testwork once again revealed that the bank reconciliations were not
prepared in a timely manner. We continue to recommend that all bank reconciliations be prepared
monthly in a timely manner (within five days after receiving the bank statement) so that any discrepancies
can be identified in a timely manner.

December 31, 2010 Status: Our testwork noted the bank reconciliations are being prepared in a timely
manner. In general the reconciliations are signed by the person who prepared them and the reviewer;
however, we noted instances where the reconciliation was not signed by the reviewer. We continue to
recommend all reconciliations be signed by the reviewer as part of proper internal controls.

Management Response: The instances of lack of signatures were caused by the fact that the former
Finance Manager left the position before the new Finance Manager came to Angola.

                                     Conflict-of-Interest Statements

Prior Years Comment: Our audits disclosed that employees at the NPA-Angola office do not complete
conflict-of-interest statements. We believe that best practices within the International NGO community
places great emphasis on the completion of annual conflict-of-interest statements by all employees.

Accordingly, we recommend that all employees at the NPA-Angola office complete conflict-of-interest
statements. In addition, due to the fact that relationships change over time, we believe that all employees
should complete conflict-of-interest statements on an annual basis. We also recommend that the Human
Resource (HR) Director summarize all conflicts, if any, and distribute the list to those personnel involved
in either the procurement or payment for goods and services.

December 31, 2010 Status: There was no action taken with respect to our comment during 2009.
Accordingly, we continue to recommend that conflict-of-interest statements be completed by all
employees on an annual basis.

Management Response: We agree with the auditors comment and the Headquarters Office (HO) has
issued new guidelines and templates in respect of conflict of interest which will be implemented as soon
as possible. All new employees will sign the conflict of interest statement and present employees at
renewal of contracts. HO is entering into a program of training within this area and other related issues
and will ensure compliance by end of 2012.

                                            Request of Funds

Prior Years Comment: NPA-Angola does not prepare a formal request for funds to be transferred from
the home office to Angola. We recommend considering the preparation of a formal request and
documentation to support this request.

December 31, 2010 Status: Late 2010, NPA – Angola prepared and utilized a formal request for funds
process.

                                          Whistleblower Policy

Prior Years Comment: NPA-Angola does not have a clearly documented whistleblower policy that is
disseminated to staff. We recommend NPA-Angola develop and train staff on this policy.

December 31, 2010 Status: There was no status taken during 2010, however, management has drafted
a comprehensive policy and it is expected to be disseminated to all staff in 2011.

Management Response: Management agrees, and our expectation is to issue the policy to all staff in
the second half of the 2011 fiscal year.

                                                                                                     IV-10
                                                  (LAOS)
                                     Conflict-of-Interest Statements

December 31, 2009 and 2010 Comment: At the present time, employees at the NPA-Laos office do not
complete conflict-of-interest statements. We believe that best practices within the International NGO
community places great emphasis on the completion of annual conflict-of-interest statements by all
employees. We recommend that all employees at the NPA-Laos office complete conflict-of-interest
statements. In addition, due to the fact that relationships change over time, we believe that all employees
should complete conflict-of-interest statements on an annual basis. We also recommend that the Human
Resource (HR) Director summarize all conflicts, if any, and distribute the list to those personnel involved
in either the procurement or payment for goods and services

Management Response: We agree with the auditors comment and the Headquarters Office (HO) has
issued new guidelines and templates in respect of conflict of interest which will be implemented as soon
as possible. All new employees will sign the conflict of interest statement and present employees at
renewal of contracts. HO is entering into a program of training within this area and other related issues
and will ensure compliance by end of 2012.

                                  Timely Remittance of Tax Payments

December 31, 2009 and 2010 Comment: The 2009 statutory audit conducted by an independent audit
firm revealed that during 2009, the NPA-Laos office did not remit the monthly tax payments in a timely
manner (in compliance with Lao law). Based upon our discussions with management of the NPA-Laos
office we understand that the tax payments have been made on a timely basis during the 2011 fiscal
year, however, we recommend that management of NPA-Laos implement policies and procedures which
would ensure that the finance department has remitted the monthly tax payments by the required due
dates.

Management Response: During fiscal 2011, NPA-Laos has remitted withheld tax to the revenue
authorities on a timely basis and will continue to do so.

                                      Documentation of Air Travel

December 31, 2010 Comment: Our audit testwork revealed several instances where airline tickets were
purchased and charged to both the Laos and Vietnam United States Department of State (USDOS) grant
awards, however, proof of flight was not available for inspection.

Criteria: 22 CFR 226 Subpart C Section 21 "Standards for Financial Management Systems" requires
recipients of Federal funds to establish financial management systems that will ensure effective control
over and accountability for all funds, property and other assets.

Questioned Costs: None noted

Context, Effect and Cause: Lack of critical internal controls increase risk associated with financial
management, and the potential for the misappropriation of funds.

Recommendation: While the majority of the flights were purchased from a local travel agent for local
flights, we recommend that, if possible, all employees who travel be required to submit proof of travel (i.e.
boarding passes or cancelled tickets) to the finance office upon completion of the trip.

Management Response: NPA policies require boarding pass in original attached to travel claims as
proof of actual travel being completed. We will send reminder to our staff and intensify control upon return
from travels.




                                                                                                       IV-11
                             Adherence to NPA Policies and Procedures

December 31, 2010 Comment: The 2010 statutory audit conducted by an independent audit firm
revealed that during 2010, management of the NPA-Laos office did not adhere to NPA’s established
policies with respect to the counting of petty cash every 14 days or the timely clearance of travel
advances.

Criteria: 22 CFR 226 Subpart C Section 21 "Standards for Financial Management Systems" requires
recipients of Federal funds to establish financial management systems that will ensure effective control
over and accountability for all funds, property and other assets.

Questioned Costs: None noted.

Context, Effect and Cause: Noncompliance with the established policies and procedures could result in
misappropriation of funds or disallowed costs.

Recommendation: While we noted improvement during the 2011 fiscal year, we recommend that
management of the NPA-Laos office continue to follow-up on the findings identified by the independent
audit firm to ensure compliance with NPA’s established policies.

Management Response: Bi monthly cash counting is standard procedure for both the country office in
Vientiane and the field offices. We have not experienced deviations from the policies in 2011. During field
visit to Vietnam by the RFM (Regional Finance Manager) late May 2011 we experienced that similar
policy is implemented and adhered to by the Vietnam operations

                                               (GEORGIA)
                                         Travel Documentation

December 31, 2009 and 2010 Comment: Our audit revealed instances where documentation to support
the travel expenses (i.e. boarding passes or used plane tickets) was missing. We strongly recommend
that all employees of NPA-Georgia be reminded of the importance of providing documentation to support
the actual travel costs at the conclusion of their travel.

Management Response: NPA endeavors at all times to comply with the guidelines in respect of
documented travel, but unfortunately, we have had instances on non-compliance by not having adequate
supporting documents. It is the responsibility of the line manager and the accounting staff to ensure
adequate documentation is received and accountancy staff has been told not to pay the expense without
the proper documentation.

While we have seen great improvements, there are continuing issues which need to be addressed; the
latest audit showing instances of boarding passes or ticket stubs missing from the supporting
documentation, which will be rectified in the fiscal 2011. Please note that the issue stems mainly from the
issuance of electronic air tickets.

                                    Conflict-of-Interest Statements

December 31, 2009 and 2010 Comment: At the present time, employees at the NPA-Georgia office do
not complete conflict-of-interest statements. We believe that best practices within the International NGO
community places great emphasis on the completion of annual conflict-of-interest statements by all
employees. We recommend that all employees at the NPA-Georgia offices complete conflict-of-interest
statements. In addition, due to the fact that relationships change over time, we believe that all employees
should complete conflict-of-interest statements on an annual basis. We also recommend that the Human
Resource (HR) Director summarize all conflicts, if any, and distribute the list to those personnel involved
in either the procurement or payment for goods and services.



                                                                                                     IV-12
Management Response: We agree with the auditors comment and the Headquarters Office (HO) has
issued new guidelines and templates in respect of conflict of interest which will be implemented as soon
as possible. All new employees will sign the conflict of interest statement and present employees at
renewal of contracts. HO is entering into a program of training within this area and other related issues
and will ensure compliance by end of 2012.

                                          (JORDAN AND IRAQ)
                                     Conflict-of-Interest Statements

December 31, 2010 Comment: At the present time, employees at the NPA-Amman and NPA-Basra
office do not complete conflict-of-interest statements. We believe that best practices within the
International NGO community places great emphasis on the completion of annual conflict-of-interest
statements by all employees.

Criteria: 22 CFR 226 Subpart C Section 21 "Standards for Financial Management Systems" requires
recipients of Federal funds to establish financial management systems that will ensure effective control
over and accountability for all funds, property and other assets.

Questioned Costs: None noted

Context, Effect and Cause: The purposes of completing conflict-of-interest statements are to ensure the
objectivity and integrity of the work of NPA and its staff members. An effective conflict-of-interest policy
helps ensure NPA’s compliance with federal and best practices relating to conflicts of interest.

Recommendation: We recommend that all employees at the Amman office, Basra office and those
employees responsible for purchasing or paying invoices at the sub-offices complete conflict-of-interest
statements. In addition, due to the fact that relationships change over time, we believe that all of the
aforementioned employees should complete conflict-of-interest statements on an annual basis. We also
recommend that the Human Resource (HR) Director summarize all conflicts, if any, and distribute the list
to those personnel involved in either the procurement or payment for goods and services.

Management Response: NPA’s Code of Conduct, which is signed by all our staff, and our Procurement
guidelines cover similar issues as a Conflict of Interest Statement. As recommended by the auditor, we
will create a Conflict of Interest Statement and have it signed by relevant staff on an annual basis.

                                      Documentation of Air Travel

December 31, 2010 Comment: Our audit testwork revealed several instances where airline tickets were
purchased and charged to both the Jordan and Iraq United States Department of State (USDOS) grant
awards, however, proof of flight was not available for inspection.

Criteria: 22 CFR 226 Subpart C Section 21 "Standards for Financial Management Systems" requires
recipients of Federal funds to establish financial management systems that will ensure effective control
over and accountability for all funds, property and other assets.

Questioned Costs: None noted

Context, Effect and Cause Lack of critical internal controls increase risk associated with financial
management, and the potential for the misappropriation of funds.

Recommendation: While the majority of the flights were purchased from a local travel agent for flights
between Amman and Basra, we recommend that, if possible, all employees who travel be required to
submit proof of travel (i.e. boarding passes or cancelled tickets) to the finance office upon completion of
the trip.

Management Response: This will be implemented from 2011.



                                                                                                      IV-13
         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




January 17, 2013




                                                                                                   IV-14
             COST-SHARING SCHEDULE

    NORWEGIAN PEOPLE’S AID
 UNITED STATES GOVERNMENT PROGRAMS

FOR THE YEAR ENDED DECEMBER 31, 2010




                                  V-1
                                   NORWEGIAN PEOPLE’S AID



                                            CONTENTS



                                                                          PAGE NO.



INDEPENDENT AUDITORS’ REVIEW REPORT                                          V-3 



EXHIBIT A - Cost-Sharing Schedule, for the Year Ended December 31, 2010       V-4 



NOTE TO COST-SHARING SCHEDULE                                                V-5





                                                                                V-2
                              INDEPENDENT AUDITORS' REVIEW REPORT 

                                 ON THE COST-SHARING SCHEDULE 



To the Board of Directors
Norwegian People’s Aid
Oslo, Norway

To the Management
Norwegian People’s Aid – South Sudan
Juba, South Sudan


         We have reviewed the accompanying cost-sharing schedule of Norwegian People’s Aid (NPA) for
the year ended December 31, 2010. Our review was conducted in accordance with standards established
by the American Institute of Certified Public Accountants (AICPA). The purpose of our review was to
determine if the cost-sharing schedule is fairly presented in accordance with the basis of accounting
described in the accompanying Note to Cost-Sharing Schedule and to determine if the cost-sharing
contributions were provided in accordance with the terms of the agreement. We also considered NPA’s
internal control related to the provision of and accounting for cost-sharing contributions.

         A review consists principally of inquiries of recipient personnel and analytical procedures applied to
financial data. It is substantially more limited in scope than an examination, the objective of which is to
express an opinion on the cost-sharing schedule. Accordingly, we do not express such an opinion.

        Based on our review, nothing came to our attention that caused us to believe that NPA did not fairly
present the cost-sharing schedule, in all material respects, in accordance with the basis of accounting used
to prepare the cost-sharing schedule. Furthermore, nothing came to our attention that causes us to believe
that NPA has not provided and accounted for cost-sharing contributions, in all material respects, in
accordance with the terms of agreement.
                                  ________________________________________


         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




January 17, 2013




                 4550 Montgomery Avenue • Suite 650 North • Bethesda, Maryland 20814 
                         (301) 951‐9090 • Fax: (301) 951‐3570 • www.grfcpa.com 
                                                       
             Member of CPAmerica International, an Affiliate of Crowe Horwath International
 
     Member of the American Institute of Certified Public Accountants’ Public Companies Practice Section


                                                                                                            V-3
                                                                                                           EXHIBIT A

                                            NORWEGIAN PEOPLE’S AID


                                     COST-SHARING SCHEDULE 

                               FOR THE YEAR ENDED DECEMBER 31, 2010




                                    2010                    Total        2009       Total
                    Actual     Ineligible   Unsupported    Eligible    Cumulative Cumulative   Budget       Variance

CASH: USAID #FFP-
 A-00-04-00021-00 $3,723,779      $ -           $ -       $3,723,779    $556,643   $4,280,422 $4,280,422      $ -




                               See accompanying note to cost-sharing schedule.                                      V-4
                                    NORWEGIAN PEOPLE’S AID


                               NOTE TO COST-SHARING SCHEDULE 

                                      DECEMBER 31, 2010




1.   BASIS OF PRESENTATION

     The accompanying cost-sharing schedule has been prepared on the accrual basis of accounting,
     and presents only the transactions of Norwegian People’s Aid’s cost-sharing grants applicable to the
     requirements of certain United States Agency for International Development awards. Accordingly,
     the cost-sharing schedule is not intended to present fairly all transactions of Norwegian People’s Aid
     as a whole.




                                                                                                       V-5
    NORWEGIAN PEOPLE’S AID
 UNITED STATES GOVERNMENT PROGRAMS

                          REPORT ON
           INDIRECT RATE CALCULATION

FOR THE YEAR ENDED DECEMBER 31, 2010




                                  VI-1
                                     NORWEGIAN PEOPLE’S AID




                                              CONTENTS



                                                                         PAGE NO.


INDEPENDENT AUDITORS' REPORT                                               VI-3


EXHIBIT A - Statement of Indirect Rate Calculation, for the Year Ended
            December 31, 2010                                              VI-4


NOTES TO STATEMENT OF INDIRECT RATE CALCULATION                           VI (5-6)




                                                                               VI-2
                               KPMG AS                                                                  Telephone    +47 04063
                               P.O. Box 7000 Majorstuen                                                 Fax          +47 22 60 96 01
                               S"'rkedalsveien 6                                                        Internet     www.kprng.no
                               N-0306 Oslo                                                              Enterprise   935 174 627MVA




Report on Schedule of Computation ofIndirect Cost Rate



The Board of Directors
Norwegian People's Aid
P.O.Box 8844 Youngstorget
N-0028 Oslo
Norway




We audited the financial statements for Norwegian People's Aid for the year ended 31 December
2010. Our audit ofthe financial statements ofNorwegian People's Aid, prepared in accordance
with the Norwegian Accounting Act and accounting standards and practices generally accepted
in Norway, for the year ended 31 December 201 0 was performed for the purpose of forming an
opinion on the basic financial statements taken as a whole.

The attached schedule of computation of indirect cost rate for 201 0 is presented for the purpose
of additional analysis and is based on, but not a required part of, the audited basic financial
statements. Such information has been subjected to the auditing procedures applied in the audit of
the basic financial statements and, in our opinion, is fairly stated in all material respects in
relation to the basic financial statements taken as whole. We conducted our audit in accordance
with laws, regulations, and auditing standards and practices generally accepted in Norway,
including International Standards on Auditing.



Oslo, 28 November 2011
KPMGAS




 .dt.,J~@0
~Yf:tulhorl.l'ed   Public Accountant




                                                                                                       O~a           Haugesund       Sondeljord
                                                                                                       Bodo          Krislioflsend   Sendnossj08n
                                                                                                       Alia          Lervik          Stevanper
                                                                                                       Aranda!       lilhdnmvner     Stord
                              KPMG AS 1s a mambar lirm ollhll KPMG network ol inlklptindnnt rnornhor   Borgrm        Mni Rnnfl       TromRe
                              l1rms affiliated with KPMG lnternslional, a Swiss cooparalwo             [lvfltum      Molde           Trondhetm
                                                                                                       Finnsnes      Narvik          Tensborg
                              Stlllsoutoriserto rev1sorer- mMIIBtnrnH llV DAn nnrske Aavisorlorening   Hart'l'lr     Aaros           Aloswtd
                                                                                                                                                                               ~ Norwegian
                                                                                                                                                                                     
     People's Aid

                                                                                            Norsk Folkehjelp


               All numbers ere in NOK                                                                                      Schedule of computation of Indirect cost rate

                                                                                                                                For the year ended december 2010

                                                                                                                          Exclusions/ Unallowable
               Description                                                                                   Expenses                   Expences                  Direct C ost Base     Indirect CQ!l Pool

               Bad dellt expence                                  0 ,77                                      5 781 795                     5 781 795                        5 781 795
               Depredation                                        0,51                                       3 817 432                                                       846634               2970799
    Note 1 
   Employee moral, health and welfare                 1,49                                      11139 770                                                       9577 403              1 562 368
    Note2 
    Entertainment                                      0,06                                         474 177                      474177                           474 177
               Equipment rental                                   0.38                                       2 875 919                                                      2450176                425 742
               Equipment/ capex- non depreciation                 6,03                                      45 115 589                                                     43108141              2 007 448
               Fringe benefits (Employee benefils)                2,78                                      20837 448                        938 505                       18 216 020            2 621 426
               F!Jld raising                                      5,54                                      41 492518                     41 492 518                       41492 518
               Insurance                                          0,13                                       1 007 919                                                        872 755              135163
    Note 3     Materials & supplies                               6,09                                      45592548                                                       44 824 740              967808
               Occupancy & cleaning                               5,39                                      40 355 504                                                     37 344 218             3 011 286
               Office supplies                                    0,51                                       3 843 084                                                      2 560 264             1 282 820
               Postage, shipping & transport                      0,56                                       4 2 13 610                                                     3 682 891               530719
               Printing & duplicating                             0,62                                       4636204                                                        3655239                980965
    Note4      Professional expences                              3,07                                      22 967628                                                      17408558               5 559 070
    NoteS      Recruitment                                        0,12                                         888324                                                        207 480                680844
    NoteS      Repairs & maintenance                              2,53                                      18 963 784                                                  15893227                  3 070 557
               Salaries & wages                                   34,26                                    256 376 083                                                 195165138                 61 210 945
    Note7      Sub contractors                                    22,79                                    170 568 386                                                 170568386
               Telephone                                          1,02                                       7 620 747                                                   5177041                  2443 706
               Trairing & education                               1,68                                      12 549 515                       200000                        11 298178              1 251 336
               Travel                                             3,49                                      26151 640                                                      20921 901              5 229739
               Miscellaneous                                      0,14                                       1027013                                                         262436                 764 577


                                    Total applicable Nicra cost                                            748 296 633                    48 886 994                   651 589 317               96 707 316




    NoteS      Redundant costs not applicable to Nicra                                                      96 506155
    Note 9     Exclutlon of USAID Grants with no NICRA allocation                                           28455196
               Total cost transpararit to the Year End
               Statement                                                                                   873257 984




                                                                  lndnct CO'il                                              9670( 316                                                   14,84%
                                                                  Direct IX'St b8se                                         651589 '317




                                                                  Oslo, the 9. th of November 2011. CFO Heidi Lombnes


Nlcra NOK                                                                                                                                                                                   NICRA moclel2010 oppcletert 09112011
NOTES TO THE NICRA MODEL 2010

Note 1: Employee, moral, health and welfare costs and credits
The major costs are regarding expenses to health and first aid clinics, plus social gatherings
improving employer – employee relations.

Note 2: Entertainment
Entertainment includes costs related to serving of alcohol and is categorised as not allowable
in complience with circular no. A 122.

Note 3: Material & Supplies
NPA experience a high degree of complexity related to the handling of commodities and
donations in kind in war thorn areas. The fact that the transport infrastructure is not fully
developed, implicates a strong need for a 'hands on approach' and use of management time
and resources. Based on this, NPA believes that the cost of materials and supplies should be
fully included in the direct cost base and is not a distoring factor.

Note 4: Professional expenses
Professional services are mostly regarding project - and development related consultancy
services, IT-consultancy, lawyers and assurance services.

Note 5: Recruitment
Advertisements for recruitments are according to circulare A-122.

Note 6: Repair and maintenance
Costs regarding repair and maintenance might seem high at first glance, but around 50% of
the costs are due to repairs of NPA's large vehicle fleet.
Some of the main focus areas for NPA are food distribution and mine clearance activities
that involves a lot transport and mileage in areas with poor road conditions. NPA is engaged
in several prosjects related to this, meaning that the wear and tear of the vehicle fleet is high
involving a high degree of repair and maintenance.
Another major factor driving the costs for repair and maintenance is NPA's geographical
presence in several countries via external offices which needs maintenance.

Note 7: Sub Contractors and Partnership
NPA’s global strategy is to implement aid via partnerships and subcontractors, and the
organisation is cooperating with a high number of subcontractor. NPA has a close working
relationship with several of partners and contractors, which involves high degree of
management time following up agreements and the projects itself. Based on this, NPA has
decided to include the full value of subcontracts in the Nicra model.

Note 8: Redundant costs not applicable to Nicra
In order to achieve performance management targets, NPA allocates costs at project number
level in order to evaluate the performance of each project, external office etc.

As a consequence, head office overhead are calulated and booked as a cost at for instance an
external office, while the corresponding amount is booked as an income at the head
office.There is no net effect of this booking as income and costs are balancing, however,
both total costs and total income willl increase.

As these redundant costs/incomes has not been eliminated in the annual accounts, the costs
connected to will have to be separated and deducted as the corresponding income is not been
included in the costs pool.                                                                         VI-5
                     p

Note 9. Exclution of United Stated Government Grants with indirect cost allocation.
NPA has been awarded and provided services under several grant agreements with the
United States Government for which no indirect cost recovery is provided on activities.
Accordingly, all direct activitiy cost incurred for those programs have excluded from the
direct cost in the accompanyinf Statment of Indirect Rate Calculation.




                                                                                            VI-6
